APPENDIX

Appendix A – Court of Appeals Opinion
983 F.3d 671
OUTDOOR AMUSEMENT BUSINESS
ASSOCIATION, INC. ; Maryland State
Showmen's Association, Inc.; The Small and
Seasonal Business Legal Center; Lasting
Impressions Landscape Contractors, Inc.;
Three Seasons Landscape Contracting
Services, Inc; New Castle Lawn & Landscape,
Inc., Plaintiffs – Appellants,
v.
DEPARTMENT OF HOMELAND SECURITY;
United States Citizenship and Immigration
Services; Department of Labor; Employment &
Training Administration; Wage & Hour
Division, Defendants – Appellees,
Margharita Kuri; Timothy King; Henry
Wojdylo; Ronald Nyenhuis; Shirley Harmon;
Antonio Rivera Martinez; Andrew Mitschell;
Comité de Apoyo a Los Trabajadores Agricolas
(CATA); Pineros y Campesinos Unidos del
Noroeste ; Northwest Forest Workers Center,
Amici Supporting Appellees.
No. 18-2370
United States Court of Appeals, Fourth Circuit.

1a

Argued: September 10, 2020
Decided: December 18, 2020
ARGUED: Robert Wayne Pierce, PIERCE LAW
FIRM, Annapolis, Maryland; Leon R. Sequeira,
Arlington, Virginia, for Appellants. Kathryne M.
Gray, UNITED STATES DEPARTMENT OF
JUSTICE, Washington, D.C., for Appellees.
Clermont Fraser Ripley, NORTH CAROLINA
JUSTICE CENTER, Raleigh, North Carolina, for
Amici Curiae. ON BRIEF: Joseph H. Hunt, Assistant
Attorney General, William C. Peachey, Director,
Erez Reuveni, Assistant Director, Glenn M.
Girdharry, Assistant Director, Joshua S. Press,
Office of Immigration Litigation, Civil Division,
UNITED STATES DEPARTMENT OF JUSTICE,
Washington,
D.C.,
for
Appellees.
Edward
Tuddenham, Paris, France; Art Read, JUSTICE AT
WORK, Philadelphia, Pennsylvania; Vanessa Coe,
LEGAL AID SOCIETY OF PALM BEACH COUNTY,
INC., West Palm Beach, Florida; D. Michael Dale,
NORTHWEST WORKERS’ JUSTICE PROJECT,
Portland, Oregon, for Amici Comité de Apoyo de Los
Trabajadores Agricolas (CATA), et al.
Before KEENAN,
Circuit Judges.

WYNN,

and

RICHARDSON,

Affirmed in part and vacated in part by published
opinion. Judge Richardson wrote the opinion, in
which Judge Keenan and Judge Wynn joined.
2a

RICHARDSON, Circuit Judge:
H-2B visas provide vital employees for employers
who need temporary nonagricultural workers but
cannot find help domestically. Each year, H-2B visas
allow 66,000 temporary workers to enter the country
to meet those demands. A core part of the H-2B visa
program is labor certifications—the process of
determining whether American workers are
available and whether employment of H-2B workers
would adversely affect similarly employed American
workers.
For at least 50 years, the agency in charge of H-2B
visas relied on the Department of Labor to provide
labor certifications. In 2008, the Department of
Homeland Security (the agency now charged with
administering the H-2B program) passed rules
requiring that employers receive a favorable labor
certification from Labor (as Homeland Security's
chosen
[983 F.3d 676]
"consulting agency") before obtaining a visa. To
implement and structure this labor-certification
process, Labor promulgated several program and
wage regulations. This set off an avalanche of
litigation that led to Homeland Security and Labor
jointly issuing a new series of rules in 2015.

3a

Plaintiffs, a group of employers and associations
whose members rely on H-2B visas, challenge
Homeland Security's 2008 Rules and the joint 2015
Rules as exceeding the agencies’ statutory authority.
We agree with the district court that the challenge to
the 2008 Rules is time-barred. We conclude that
Plaintiffs lack standing to challenge the 2015
Enforcement Rules and therefore vacate the district
court's decision on the merits as to those rules. But
we agree with the district court that the remaining
Rules—the 2015 Program and Wage Rules—were
properly promulgated.
I. Background
Plaintiffs are a group of employers and associations
whose members rely on H-2B visas to find workers
for
their
temporary
nonagricultural
jobs
("Employers"). Employers sued to challenge a series
of regulations promulgated by Homeland Security
and Labor governing the H-2B program. Employers
claim that these rules exceeded the Government's
statutory authority. See 5 U.S.C. §§ 558 and
706(2)(C). Employers argue that several of its named
members have been harmed by these "unworkable"
Rules, as the Rules have increased compliance costs,
caused delays, and led to bankruptcies, layoffs, and
breaches of contract. Supplemental Br. of Employers
1. And Outdoor Amusement, an organization
representing some of the Employers, alleges that it
4a

has lost members and diverted resources to educate
and ensure their remaining members comply. Id . at
10.
The first set of challenged rules are Homeland
Security's 2008 Rules. Those Rules require an
employer to receive a favorable labor certification
from Labor before submitting an H-2B petition to
Homeland Security. 8 C.F.R. § 214.2(h)(6) ; 73 Fed.
Reg. 78,104, 78,129.1 Before these Rules, employers
still had to seek a labor certification, but they could
request a review by Homeland Security if they were
denied. 31 Fed. Reg. 4446 (Mar. 16, 1966) ; 8 C.F.R. §
214.2(h)(6)(iv)(D), (E) (2008) ; see also G.H. Daniels
III & Assocs., Inc. v. Perez , 626 F. App'x 205, 207
(10th Cir. 2015). Under the 2008 Rules, however,
Homeland Security would not consider granting an
H-2B petition if Labor denied the employer a labor
certification. 8 C.F.R. § 214.2(h)(6)(iii)(C). If Labor
refused to issue a certification, an employer's only
recourse after the 2008 Rules was to appeal within
Labor to obtain a certification. 8 C.F.R. § 214.2(h)(6) ;
73 Fed. Reg. 78,063, 78,104, 78,129. Employers argue
that the 2008 Rules abrogate Homeland Security's
statutory duty to be the agency determining every
petition by making petitions contingent on a
favorable labor certification from Labor.
The Employers also challenge two sets of rules from
2015: the 2015 Program Rules establishing the
5a

standards
governing
the
labor-certificationapplication process, 80 Fed. Reg. 24,042, and the
2015 Wage Rules setting the standards for
determining prevailing wages to be paid to H-2B
workers, 80 Fed. Reg. 24,146. Employers contend
that these 2015 Program and Wage Rules exceed
Homeland Security and Labor's statutory authority
because Homeland Security cannot pass rules
[983 F.3d 677]
about labor certifications controlling Labor and
Labor lacks authority to issue any rules governing its
own conduct in granting the labor certifications.
The district court rejected these challenges and
granted
summary
judgment
upholding
the
regulations.
A. Statutory framework and history
Congress passed the Immigration and Nationality
Act ("INA") in 1952 to collect and reorganize existing
immigration law. 66 Stat. 163, 168 (1952), now 8
U.S.C. § 1101 et seq . As part of this law, Congress
gave the Attorney General authority to administer
and enforce laws and regulations about the
admission of aliens. 8 U.S.C. § 1103(a)(1). Congress
later transferred this authority to the Secretary of
Homeland Security. Homeland Security Act of 2002,
Pub. L. No. 107-296, § 402, 116 Stat. 2135, 2178
6a

(2002). The Secretary is given broad authority over
immigration: "The Secretary of Homeland Security
[is] charged with the administration and
enforcement of this chapter and all other laws
relating to the immigration and naturalization of
aliens." 8 U.S.C. § 1103(a)(1). And Congress has
directed the Secretary to "establish such regulations
... and perform such other acts as he deems
necessary for carrying out his authority under the
provisions of this chapter." § 1103(a)(3).
One of the Homeland Security Secretary's duties is
administering the nonimmigrant H-2 Visa Program
for temporary unskilled workers. 8 U.S.C. §
1184(c)(1). In administering this program, "any
specific case or specific cases shall be determined by
the [Secretary], after consultation with appropriate
agencies of the Government, upon petition of the
importing employer." Id . (emphasis added). The
employer's petition must be approved for an H-2 visa
to be granted. And that "petition shall be in such
form and contain such information as the [Secretary]
shall prescribe ." Id. (emphasis added).
Congress has bifurcated the H-2 visa program for
temporary foreign workers. See 8 U.S.C. §
1101(a)(15)(H)(ii) (a) – (b). The first piece, H-2A,
provides visas for temporary agricultural workers.
The second, H-2B, permits employers to hire

7a

temporary nonagricultural workers. This
concerns this second visa program, H-2B.

case

H-2B visas are statutorily available for those aliens
(1) "having a residence in a foreign country which
[they] ha[ve] no intention of abandoning" and (2)
"who [are] coming temporarily to the United States
to perform other [nonagricultural] temporary service
or labor," but only (3) "if unemployed persons capable
of performing such service or labor cannot be found
in this country." 8 U.S.C. § 1101(a)(15)(H)(ii)(b). And
whether these three criteria are satisfied must be
"determined" by the Secretary of Homeland Security
"after consultation with appropriate agencies." 8
U.S.C. § 1184(c)(1).
B. Regulatory framework and history
Historically, the Attorney General had chosen to
consult with Labor to determine "if unemployed
persons capable of performing such service or labor
cannot be found in this country." 8 U.S.C. §
1101(a)(15)(H)(ii)(b) ; 31 Fed. Reg. 4446, 6611 (1966)
; 18 Fed. Reg. 4925 (1953) ; 38 Fed. Reg. 35,427
(1973).2 And, as the consulting
[983 F.3d 678]
agency, Labor issued various letters determining the
standards for labor certifications. See LFA , 889 F.
Supp. 2d at 715–17 (collecting various letters).
8a

In 2008, Homeland Security promulgated rules, after
notice and comment, that formalized the process by
requiring a certification from Labor that the
employer's temporary jobs could not be filled with
American workers and that H-2B workers would not
adversely affect similarly employed American
workers. 8 C.F.R. § 214.2(h)(6)(iii)(A). Without that
certification, the new rules barred Homeland
Security from considering a petition for H-2B visas. §
214.2(h)(6)(iii)(C).3 The standards Labor was to use
in issuing a certification remained largely the same:
whether there are enough American workers who
can fill the positions and whether the employment of
nonimmigrants will adversely affect wages of
similarly employed Americans. § 214.2(h)(6)(iii)(A).
Along with Homeland Security's labor-certification
requirement, Labor promulgated Wage Rules setting
the methodology for how to calculate the prevailing
wages to be paid to the H-2B workers. These rules
were met with a flurry of litigation and several
orders about their legality. A district court held that
those Wage Rules violated the APA and gave Labor
120 days to issue new rules. Comite de Apoyo a los
Trabajadores Agricolas v. Solis , No. 09-240, 2010
WL 3431761, at *27 (E.D. Pa. Aug. 30, 2010). But
Labor continued using these rules until a district
court enjoined it in 2013. Comite de Apoyo a los
Trabajadores Agricolas v. Solis , 933 F. Supp. 2d 700,
716 (E.D. Pa. 2013).
9a

Around the same time the courts enjoined the 2008
Wage Rules, Labor issued rules establishing the
procedures for issuing labor certifications. These
rules were also challenged with mixed results. The
Eleventh Circuit enjoined them, finding that Labor
lacked authority to issue rules with respect to the H2B program. Bayou Lawn & Landscape Servs. v.
Sec'y of Labor , 713 F.3d 1080, 1085 (11th Cir. 2013)
; see also Bayou Lawn & Landscape Servs. v. Perez ,
81 F. Supp. 3d 1291, 1300 (N.D. Fla. 2014) (vacating
the rules on the same grounds) (mooted by the 2015
Rules). But the Third Circuit rejected a similar
challenge, finding Labor did have rulemaking
authority based on congressional acquiescence.
[983 F.3d 679]
La. Forestry Ass'n Inc. v. Sec'y U.S. Dep't of Labor
(LFA) , 745 F.3d 653, 669 (3d Cir. 2014). To resolve
the regulatory gap created by the various
injunctions, Labor proposed more rulemaking to
determine prevailing wages and continued using the
2008 procedural rules. But the 2008 Rules were
again enjoined by another district court. Perez v.
Perez , No. 14-cv-682, 2015 U.S. Dist. LEXIS 27606
(N.D. Fla. Mar. 4, 2015). Because of the various court
orders, "Labor ceased operating the H-2B program."
80 Fed. Reg. 24,151.
To restart the H-2B program, Homeland Security
and Labor jointly promulgated the 2015 Program
10a

and Wage Rules. See 80 Fed. Reg. 24,045 (noting the
agencies acted jointly "[t]o ensure that there can be
no question about the authority for and validity of
the regulations in this area"). First, Homeland
Security and Labor issued the 2015 Program Rules
establishing "the process by which employers obtain
a temporary labor certification" from Labor for use in
petitioning Homeland Security. 80 Fed. Reg. 24,042.
Second, they issued the 2015 Wage Rules
establishing the methodology by which Labor
"calculates the prevailing wages to be paid to H-2B
workers." 80 Fed. Reg. 24,152. These 2015 Rules
were both promulgated under the "good cause"
exception to full notice-and-comment rulemaking. 80
Fed. Reg. 24,047, 24,152. Although not required, the
agency still took and reviewed public input. 80 Fed.
Reg. 24,050, 24,153. The Rules rested on the same
statutes that the regulations promulgated in 1968
had, along with various regulations. 8 U.S.C. §§
1101, 1103, 1184 ; 8 C.F.R. § 214.2 ; see 80 Fed. Reg.
24,108 ; 20 C.F.R. § 655 (2015 Program Rules); 80
Fed. Reg. 24,184 ; 20 C.F.R. § 655 (2015 Wage
Rules).
The 2015 Rules have also been challenged. The
Government has already prevailed in two cases
challenging the new rules. See Comite de Apoyo a los
Trabajadores Agricolas v. Perez, 148 F. Supp. 3d 361,
364 (D.N.J. 2015) (finding plaintiffs lacked standing);
Bayou Lawn & Landscape Servs. v. Johnson , 173 F.
11a

Supp. 3d 1271, 1276 (N.D. Fla. 2016) (rejecting APA
procedural challenges). Even so, Employers here
challenge the 2008 and 2015 Rules as exceeding the
agencies’ authority.
C. Procedural history
Employers sought declaratory and injunctive relief,
and both parties cross moved for summary judgment.
The district court noted in passing that Employers
had standing and then found that their challenges to
the 2008 Rules were time-barred. Outdoor
Amusement Bus. Ass'n, Inc. v. Dep't of Homeland
Sec. , 334 F. Supp. 3d 697, 713 (D. Md. 2018). In any
event, the court found that Homeland Security could
adopt the 2008 Rules under Chevron because
Homeland Security could reasonably interpret its
"consultation with appropriate agencies" to allow it
to require Labor's certifications as a condition
precedent. Id . at 716. The court found that locating
the authority for the 2015 Rules was trickier but
ultimately upheld them based on congressional
acquiescence to Labor's continued role in the
program. Id . at 719. The court granted the
government's motion for summary judgment, thereby
upholding the regulations. Employers timely
appealed the district court's final order. The district
court had federal-question jurisdiction under 28
U.S.C. § 1331, and we have jurisdiction under 28
U.S.C. § 1291.
12a

II. Discussion
We review de novo the district court's grant of
summary judgment. J.D. ex rel. Doherty v. Colonial
Williamsburg Found. , 925 F.3d 663, 669 (4th Cir.
2019). And the issues raised on appeal are all legal
questions that we review de novo: standing,
[983 F.3d 680]
S. Walk at Broadlands Homeowner's Ass'n, Inc. v.
OpenBand at Broadlands, LLC , 713 F.3d 175, 181
(4th Cir. 2013) ; statute of limitations, Cruz v. Maypa
, 773 F.3d 138, 143 (4th Cir. 2014) ; and APA
challenges to statutory authority, Perez v. Cuccinelli
, 949 F.3d 865, 872 (4th Cir. 2020). Because standing
implicates our Article III power to hear the case, we
must resolve it first. Hein v. Freedom From Religion
Found., Inc. , 551 U.S. 587, 597, 127 S.Ct. 2553, 168
L.Ed.2d 424 (2007).
A. Justiciability
To establish standing, the Employers must show: (1)
a concrete and particularized injury that is actual or
imminent, (2) a causal connection between the injury
and the defendant's conduct, and (3) a likelihood that
a court could redress the injury. Lujan v. Defs. of
Wildlife , 504 U.S. 555, 560–61, 112 S.Ct. 2130, 119
L.Ed.2d 351 (1992). A plaintiff has the burden to
"demonstrate standing for each claim he seeks to
13a

press" and "for each form of relief" sought. Davis v.
Fed. Election Comm'n , 554 U.S. 724, 734, 128 S.Ct.
2759, 171 L.Ed.2d 737 (2008).
Employers seek to enjoin the 2008 and 2015 Rules.
To have standing to seek an injunction, Employers
must show they are in immediate danger of
sustaining some direct injury. City of Los Angeles v.
Lyons , 461 U.S. 95, 101–02, 103 S.Ct. 1660, 75
L.Ed.2d 675 (1983). Mere "[p]ast exposure to illegal
conduct does not in itself show a present case." Id . at
103, 103 S.Ct. 1660. That said, "continuing, present
adverse effects" from past illegal conduct can suffice,
and past wrongs are evidence bearing on whether
there is a real and immediate threat of repeated
injury. O'Shea v. Littleton , 414 U.S. 488, 495–496,
94 S.Ct. 669, 38 L.Ed.2d 674 (1974). "The prospect of
future injury becomes significantly less speculative
where, as here, plaintiffs have identified concrete
and consistently-implemented policies claimed to
produce such injury." In re Navy Chaplaincy , 697
F.3d 1171, 1176–77 (D.C. Cir. 2012). Similarly, the
more "concrete" the plan and the "specification of
when" plaintiffs will act and face these policies
makes a future injury more imminent. Lujan , 504
U.S. at 564, 112 S.Ct. 2130.
Employers received every labor certification and visa
they requested. But their injury stems from the
alleged costs and delays that come from the new
14a

rules. Employers offer specific facts that several of
their members faced increased compliance costs
because of the new regulations and delays in getting
workers, which caused layoffs, lost revenue,
contractual defaults, and even bankruptcy.
Supplemental Br. of Employers 2, 10; Chiecko Aff. 2–
5. Outdoor Amusement itself says the regulations
have hurt membership, reduced dues, diverted
resources, and increased litigation costs. Id .
1. There is standing to challenge the 2008 Rules
but the challenge is time-barred
The Government argues that no plaintiff has
standing to challenge the 2008 Rules because none of
them were ultimately denied labor certifications or
visas. Thus, their only injuries stem from compliance
costs and delays, so enjoining the 2008 Rules would
not remedy their injuries because they would still
have to get a labor certification under the preexisting
rules. 8 C.F.R. § 214.2(h) (1968) ; 20 C.F.R. § 621.3
(1968) ; 33 Fed. Reg. 7570–71 (1968) ; 38 Fed. Reg.
35,427 (1973). The only difference would be that
Homeland Security could review denials of
certifications. But the Government argues that
Employers did not have any certifications denied, so
an injunction would not redress their injuries. G.H.
Daniels , 626 F. App'x at 207 ;
[983 F.3d 681]

15a

31 Fed. Reg. 4446, 6611 (1966) (countervailing
evidence allowed).
There is, however, one plaintiff who claims injuries
that could be redressed by enjoining the 2008 Rules.
And only one plaintiff needs to have standing for a
court to hear the case. Bowsher v. Synar , 478 U.S.
714, 721, 106 S.Ct. 3181, 92 L.Ed.2d 583 (1986).
Plaintiff Three Seasons, a landscaping company, was
at first denied a labor certification for failure to
comply with the 2015 Rules. After that denial, it was
required by Labor to re-apply as a job contractor.
J.A. 101–02. By the time Three Seasons re-applied
and jumped through all of Labor's hoops to receive a
certification, half the season was over, and the
workers did not arrive in time. Id. Without the 2008
Rules, Three Seasons could have gone to Homeland
Security directly and offered countervailing labormarket evidence after Labor denied certification,
potentially avoiding the re-application process and
the costly procedures and delay that accompany it.
G.H. Daniels , 626 F. App'x at 207 ; 31 Fed. Reg.
4446, 6611 (1966) (countervailing evidence allowed);
38 Fed. Reg. 35,427 (1973) (same). But under the
2008 Rules, Three Seasons had to re-apply and meet
Labor's other demands to get a labor certification
before they could even petition Homeland Security. 8
C.F.R. § 214.2(h)(6).

16a

While it is true that mere "past exposure to illegal
conduct does not in itself show a present case," Lyons
, 461 U.S. at 103, 103 S.Ct. 1660, this past exposure
evidences a non-speculative threat of future injury.
Three Seasons will continue to seek H-2B visas in
the upcoming season and will again be subject to the
2008 Rules when they do. And where a policy that
produced a plaintiff's prior injuries remains in effect,
"[t]he prospect of future injury becomes significantly
less speculative." Navy Chaplaincy , 697 F.3d at
1176–77 ; Lyons , 461 U.S. at 105–06, 103 S.Ct. 1660
(the existence of a policy authorizing the injurious
conduct and a high likelihood of again being subject
to that policy suffices to establish standing). The
2008 Rules facilitated Three Seasons’ injury and will
continue to facilitate potential future injuries. Id .
Indeed, the nature of Labor's inquiry confirms that
Three Seasons could be denied again. If there are
"United States workers capable of performing the
temporary services" for Three Seasons one year,
there will likely be workers available the next. 8
C.F.R. § 214.2(h)(6)(iii)(A). Similarly, if Three
Seasons employing aliens "will adversely affect the
wages and working conditions of similarly employed
United States workers" one year, it is highly likely
that its doing so the next year will lead to similar
adverse effects. 8 C.F.R. § 214.2(h)(6)(iii)(A).
Moreover, if the evidence Three Seasons needs to
provide to get a labor certification is difficult to
produce or if Labor in its discretion discounts some of
17a

Three Seasons’ countervailing evidence that
Homeland Security could consider, then it is not
speculative to surmise that it may be forced to
reapply in the future. Thus, because Three Seasons
faced increased delays and costs one year, those
injuries were caused by the 2008 Rules, and Three
Seasons continues to seek H-2B visas and be subject
to the 2008 Rules, there is enough evidence to show
an immediate future injury to establish standing for
an injunction.
But even with standing, Employers still must bring
their case within the applicable statute of
limitations. Employers brought a facial challenge
against the 2008 Rules in 2016, eight years after
they were promulgated. 73 Fed. Reg. 78,104. The law
is clear, however, that "every civil action commenced
against the United States shall be barred unless the
complaint is filed within six years after the right of
[983 F.3d 682]
action first accrues." 28 U.S.C. § 2401(a). The Fourth
Circuit has held that when "plaintiffs bring a facial
challenge to an agency [action] ... the limitations
period begins to run when the agency publishes the
regulation." Hire Order Ltd. v. Marianos , 698 F.3d
168, 170 (4th Cir. 2012).4 The claim is facial, as
Employers are seeking to enjoin the Rules as
improperly issued. As a result, the statute of
limitations began to run eight years before this suit
18a

was filed. As the challenge needed to be brought
within six years, 28 U.S.C. § 2401(a), the challenge
to the 2008 Rules is barred.5
2. There is standing to challenge the 2015
Program and Wage Rules
The challenges to the 2015 Program and Wage Rules,
however, may go forward. Employers have provided
enough specific facts to show that the 2015 Program
and Wage Rules have harmed them and that they
will continue to harm them in the future. Employers
have proffered evidence that the Rules will cost over
a billion dollars in ten years. And they have shown
that the delays and compliance costs of dealing with
the wage calculations, increased wages, and
procedures for the labor certifications have cost them
and their members greatly. Id . The harms include
contractual
defaults
and
damages,
layoffs,
understaffing of up to 30%, lost customers, and even
bankruptcy. J.A. 30–34, 64–66. Three Seasons lost
most of its customers and supervisors because of
delays. J.A. 102. Plaintiff Lasting Impressions had to
file for bankruptcy and lost 30% of its customers.
J.A. 99. Such compliance costs and economic harms
related to regulations are cognizable injuries. Hunt v.
Wash. State Apple Advert. Comm'n , 432 U.S. 333,
347, 97 S.Ct. 2434, 53 L.Ed.2d 383 (1977). Outdoor
Amusement also claims that over 100 members have
used the H-2B visa program and plan to do so again.
19a

Chiecko Aff. 2–5. Many of their members have
received visas several years in a row and will
continue to seek visas, facing similar costs in the
future. Id . Lasting Impressions, for example, has
received 12 visas in both of the last 2 years.
Appellee's Supplemental Br. at Exhibit B. Many
cases reviewing challenges to these or similar
regulations have found similar facts enough to confer
standing. See, e.g. , Bayou , 173 F. Supp. 3d at 1282 ;
LFA , 889 F. Supp. 2d at 720 ; Comite de Apoyo a los
Trabajadores Agricolas , 2010 WL 3431761, at *5.
This evidence suffices to show injury in fact for the
2015 Program and Wage Rules and to show a
likelihood of future harm. Employers have provided
evidence of past injuries from these regulations in
the form of compliance costs and delays and have
made credible allegations that many Employers will
continue to apply for H-2B
[983 F.3d 683]
visas. See Steffel v. Thompson , 415 U.S. 452, 459–60,
94 S.Ct. 1209, 39 L.Ed.2d 505 (1974) ; see also
Babbitt v. United Farm Workers Nat'l Union , 442
U.S. 289, 298, 99 S.Ct. 2301, 60 L.Ed.2d 895 (1979).
It is also clear when this future harm will occur:
when they apply for visas in the upcoming season.
Employers must either forgo seeking the benefits of
H-2B visas or face costly delays and compliance
costs. See Virginia v. Am. Booksellers Ass'n, Inc. ,
20a

484 U.S. 383, 386, 108 S.Ct. 636, 98 L.Ed.2d 782
(1988). All told, it is likely that Employers face a
concrete prospect of future harm, and they therefore
have standing to seek an injunction.
Further, Outdoor Amusement has standing to sue on
behalf of its injured members. An association has
associational standing when at least one of its
"identified" members "would otherwise have
standing to sue in their own right, the interests at
stake are germane to the organization's purpose, and
neither the claim asserted nor the relief requested
requires the participation of individual members in
the lawsuit." Friends of the Earth, Inc. v. Laidlaw
Env't. Servs. (TOC), Inc. , 528 U.S. 167, 181, 120
S.Ct. 693, 145 L.Ed.2d 610 (2000). The Supreme
Court has regularly found associational standing for
trade associations when an injunction would benefit
many of their members. Hunt , 432 U.S. at 342, 97
S.Ct. 2434. As shown above, at least some of Outdoor
Amusement's members have individual standing.
And Outdoor Amusement represents and educates
trade members, many of whom use H-2B visas. An
injunction reducing delays and costs in the issuance
of H-2B visas would therefore benefit many of its
members without requiring any member's individual
participation in the suit. Because Outdoor
Amusement has associational standing, we need not
address whether they have organizational standing.

21a

***
Employers’ challenges to the 2015 Program and
Wage Rules are their only justiciable claims.6 We
therefore turn to the merits of those issues.
B. The 2015 Program and Wage Rules are valid
Executive agencies have broad, but not unlimited,
authority to administer their programs. Employers
argue that Homeland Security and Labor have
exceeded their statutory authority to administer the
H-2B program by promulgating the 2008 Rules and
the 2015 Program and Wage Rules. 5 U.S.C. §§ 558,
706(2)(C).
Because the challenge to Homeland Security's 2008
Rules is time-barred, we need not decide whether
Homeland Security may interpret "consultation" to
require a
[983 F.3d 684]
favorable labor certification from Labor before
considering an H-2B petition.7 But for that laborcertification process, we must decide whether
Homeland Security or Labor had statutory authority
to promulgate the 2015 Program and Wage Rules.
We find they did. The statutory circumstances reveal
that Congress implicitly delegated Labor rulemaking
authority to administer its labor certifications as
part of its duty as the consulting agency.
22a

As Employers point out, "[i]t is axiomatic that an
administrative agency's power to promulgate
legislative regulations is limited to the authority
delegated by Congress." Bowen v. Georgetown Univ.
Hosp. , 488 U.S. 204, 208, 109 S.Ct. 468, 102 L.Ed.2d
493 (1988).8 But that delegation need not be express,
"it can still be apparent from the agency's generally
conferred
authority
and
other
statutory
circumstances that Congress would expect the
agency to be able to speak with the force of law when
it addresses ambiguity in the statute or fills a space
in the enacted law." United States v. Mead Corp. ,
533 U.S. 218, 229, 121 S.Ct. 2164, 150 L.Ed.2d 292
(2001). The "power of an administrative agency to
administer a congressionally created and funded
program necessarily requires the formulation of
policy and the making of rules to fill any gap left,
implicitly or explicitly, by Congress." Morton v. Ruiz ,
415 U.S. 199, 231, 94 S.Ct. 1055, 39 L.Ed.2d 270
(1974). When a gap exists, "a court may assume that
Congress implicitly delegated the interpretive
function to the agency." Public Citizen v. F.T.C. , 869
F.2d 1541, 1553 (D.C. Cir. 1989) ; see also Tex. Rural
Legal Aid, Inc. v. Legal Servs. Corp. , 940 F.2d 685,
691 (D.C. Cir. 1991) (finding that the Legal Services
Corporation has an implied delegation to rulemake).
And in filling these gaps, agencies can choose
between rulemaking and adjudications. Morton , 415
U.S. at 232, 94 S.Ct. 1055 ; Sec. & Exch. Comm'n v.

23a

Chenery Corp. , 332 U.S. 194, 202–03, 67 S.Ct. 1760,
91 L.Ed. 1995 (1947) ( Chenery II ).
The broad statute here leaves gaps to be filled. The
relevant section says that "any specific case or
specific cases shall be determined by the [Secretary],
after consultation with appropriate agencies of the
Government, upon petition of the importing
employer. ... The petition shall be in such form and
contain such information as the [Secretary] shall
prescribe." 8 U.S.C. § 1184(c)(1) (emphasis added).
Congress made its intent clear that a consulting
agency or agencies chosen by Homeland Security
would help Homeland Security in considering
petitions for H-2B visas. In doing so, Congress left
gaps in the form of consultation, the identity of the
consulting agency or agencies, and the content of the
petitions. Id . Homeland Security has used the
resulting discretion to fill these three
[983 F.3d 685]
gaps: Homeland Security chose Labor as the
appropriate agency; determined that it would consult
with Labor through labor certifications; and decided
that the petitions must include an approved labor
certification, along with other evidence such as a
statement of the employer's need and the alien's
qualifications. 8 C.F.R. § 214.2(h)(6)(iii) ; 8 C.F.R. §
214.2(h)(6)(vi). Homeland Security's choice to fill the
statutory gaps by consulting with Labor through
24a

labor certifications reflects a consistent practice for
H-2 visas that various agencies have engaged in
since at least 1968. See 8 C.F.R. § 214.2 (1968) ; see
also 18 Fed. Reg. 4925 (1953) ; 38 Fed. Reg. 35,427
(1973) ; 8 C.F.R. § 214.2(h)(6).
Once Homeland Security used its discretion to
consult with Labor through labor certifications, this
imposed a duty on Labor as the consulting agency to
administer the grant of those certifications. Once
designated as the consulting agency, Labor still faced
statutory gaps in how to administer the consultation.
This "necessarily requires the formulation of policy
and the making of rules to fill" that statutory gap.
Morton , 415 U.S. at 231, 94 S.Ct. 1055. And Labor
may choose rulemaking to structure the certification
process. See Chenery II , 332 U.S. at 202–03, 67 S.Ct.
1760.
Indeed,
courts—and
the
regulated
community—often prefer rulemaking to adjudication
for the former's transparency, public input, notice,
process, review, and stability. See id . (advocating
rulemaking over adjudications); David L. Shapiro,
The Choice of Rulemaking or Adjudication in the
Development of Administrative Policy , 78 HARV. L.
REV. 921, 929–42 (1965) (same). The alternative is
for Labor to use an unstructured ad hoc process or
return to informal guidance letters, both of which
could lead to further delays, costs, and reduced
accountability through shifting determinations. See
LFA , 889 F. Supp. 2d at 716–17 (collecting various
25a

letters). But Congress adopted the APA to provide
agencies with procedures that avoid "the inherently
arbitrary
nature
of
unpublished
ad
hoc
determinations." Morton , 415 U.S. at 232, 94 S.Ct.
1055.
The statutory provisions surrounding § 1184(c)(1)
show that Labor possesses implicit rulemaking
authority. For example, the definition of H-2B
explains that an H-2B visa may be obtained only if
American workers cannot be found to fill the
relevant jobs. 8 U.S.C. § 1101(a)(15)(H)(ii)(b). This
section leaves a gap as to how to determine when
U.S. workers are available. Homeland Security has
sensibly chosen to rely on Labor's expertise in the
labor market to make a two-part determination for
issuing a labor certification: "whether or not United
States workers capable of performing the temporary
services or labor are available and whether or not the
alien's employment will adversely affect the wages
and working conditions of similarly employed United
States workers." 8 C.F.R. § 214.2(h)(6)(iii)(A).
Neither judgment is self-evident. To fulfill its
consultative duty, Labor could make rules to define
how it would judge whether American workers were
available and whether foreign workers would impact
American workers’ wages. So the 2015 Program and
Wage Rules provide guidance, setting the standards
for calculating wages, identifying the information
required, identifying the minimum hours and wages
26a

required, and detailing the obligation to seek
American workers first. 20 C.F.R. §§ 655.10, 655.16,
655.18, 655.20.
Congress has also given Labor varying degrees of
control and responsibility over labor certifications in
other parts of the INA, including H-2A visas. 8
U.S.C. § 1101(a)(15)(H)(ii)(a) (H-2A nonimmigrant
agricultural worker); § 1184(c)(1) ;
[983 F.3d 686]
§ 1188(a)(1) (H-2A); § 1182(a)(5) (permanent labor
certifications); § 1182(n) (H-1B nonimmigrant
workers). For these visas, Labor can promulgate
rules. See 20 C.F.R. § 655.700 –60 (H-1B
regulations); 20 C.F.R. § 656.10 – 32 (permanent
labor certifications); Mendoza , 754 F.3d at 1021
(noting that Labor has legislative rulemaking
authority for H-2A but this means they must go
through notice and comment); Kutty v. U.S. Dep't of
Labor , 764 F.3d 540, 547–48 (6th Cir. 2014)
(acknowledging Labor rulemaking authority for H1B). In a similar case, the Seventh Circuit found that
Labor has "inherent" authority to promulgate rules
for permanent labor certifications because part of the
INA required such certifications. Prod. Tool Corp. v.
Emp. & Training Admin., U.S. Dep't of Labor , 688
F.2d 1161, 1166–67 (7th Cir. 1982). There, the court
upheld regulations requiring employers to have
unsuccessfully advertised a job opportunity to
27a

American workers to get a certification despite Labor
lacking express rulemaking authority. Id . Labor
promulgated similar rules here. 20 C.F.R. §§ 655.10
– 20. So a statutory basis for Labor to issue labor
certifications grants Labor the inherent authority to
pass regulations governing them. And that implicit
delegation to promulgate rules similarly applies
based on the statutory consulting duty under H-2B.
Rules are just as necessary for the administration of
Labor's role under each type of visa. LFA , 745 F.3d
at 674.
Employers counter with the expressio unius canon:
because Congress chose Labor as the consulting
agency and defined its role elsewhere in the INA, the
fact that Congress did not do so here means
Congress meant to preclude Labor from occupying a
similar role for H-2B visas. See Bayou Lawn &
Landscape , 713 F.3d at 1084–85 (relying on similar
reasoning to determine that Labor does not have
rulemaking authority). The Supreme Court has said
that Congress must "clearly delineate[ ] the general
policy, the public agency which is to apply it, and the
boundaries of this delegated authority." Mistretta v.
United States , 488 U.S. 361, 372–73, 109 S.Ct. 647,
102 L.Ed.2d 714 (1989) (emphasis added). And
Employers argue that this is a clear statement rule
that requires a statute to identify the agency by
name. Employers also argue that there is a
presumption that only one agency will have
28a

authority to promulgate rules under a statute, a
presumption that they contend serves to avoid the
promulgation of conflicting rules. See Union Pac.
R.R. Co. v. Surface Transp. Bd. , 863 F.3d 816, 826
(8th Cir. 2017). So Employers claim that Homeland
Security has sole rulemaking authority because
Labor is neither named nor given functions
specifically for the H-2B program (in contrast with
other provisions of the INA that specify Labor as the
agency to perform certain functions).
These contentions fail for two reasons. First, the
existence of unconstrained discretion under H-2B
does nothing to imply that Labor could not be chosen
for the same role it has elsewhere. The D.C. Circuit
rejected a similar expressio unius argument where
one part of a statute provided procedures for
handling competing bids but another section was
silent. Cheney R. Co. v. ICC , 902 F.2d 66, 68–69
(D.C. Cir. 1990). The court explained that "the
contrast between Congress's mandate in one context
with its silence in another suggests not a prohibition
but simply a decision not to mandate any solution in
the second context, i.e., to leave the question to
agency discretion." Id . (emphasis omitted). Here, the
same section requires Homeland Security to engage
in "consultation with appropriate agencies" for H-2B
and H-2A visas. 8 U.S.C. § 1184(c)(1). That section
then goes on to explicitly define the appropriate
agencies for H-2A as Labor or Agriculture
29a

[983 F.3d 687]
and other sections outline the form of that
consultation. 8 U.S.C. § 1184(c)(1) ; § 1188(a). But
the same sections are silent on the agency and type
of consultation for H-2B visas. This implies
discretion, not limitation. See Cheney , 902 F.2d at
68–69. Surely Congress did not intend to give the
consulting agency Homeland Security chooses for H2B less power than Labor in its consulting role for H2A when Congress used the same word in the same
section but did not direct how that consultation can
be done.
History also supports our reading. Labor has been
consulting through labor certifications and has
promulgated rules governing the certifications since
at least 1968, before H-2A and H-2B were divided. 33
Fed. Reg. 7570 (1968 Labor regulation governing the
certification process); 43 Fed. Reg. 19,306 (1978) ; 55
Fed. Reg. 50,510 (1990). Only in 1986 did Congress
separate H-2B from H-2A and specify that the
consulting agencies for H-2A were Labor or
Agriculture. Immigration Reform and Control Act,
Pub. L. No. 99-603, § 301(a), 100 Stat. 3359, 3411
(codified at 8 U.S.C. §§ 1101(a)(15)(H)(ii)(a) – (b) ;
1184(c)). But Congress left the H-2B language alone,
and Labor continued to consult just as it had before.
Id .; LFA , 745 F.3d at 661. By specifying the
consulting agency for H-2A but not H-2B despite
30a

both historically relying on Labor, Congress has
evidenced its intent to give Homeland Security more
discretion in H-2B, including the discretion to
continue the historical practice of relying on Labor
and its rulemaking if it so chooses. LFA , 745 F.3d at
674. That Labor has been providing labor
certifications and has promulgated rules governing
them for decades before the 2008 Rules without
serious challenge from the political branches or
courts is at least some evidence that Congress
intended that the consulting agency could rulemake
and that the chosen consulting agency could be
Labor. Thus, not naming the consulting agency
provides Homeland Security with more discretion
and does nothing to show that rulemaking authority
was withheld from the consulting agency.
Second, multiple agencies commonly cooperate with
overlapping statutory duties. See generally Jody
Freeman & Jim Rossi, Agency Coordination in
Shared Regulatory Space , 125 HARV. L. REV. 1131
(2012). Employers do not contend that Labor's role in
H-2A raises any concerns, so it is not clear why
having an unnamed agency with a consulting role in
H-2B would create problems. An analogous example
comes from section 7 of the Endangered Species Act:
"[e]ach federal agency shall, in consultation with and
with the assistance of the Secretary, insure that any
action ... is not likely to jeopardize the continued
existence of any endangered species." 16 U.S.C. §
31a

1536(a)(2). Under this law, if an agency action might
harm an endangered species, that agency must start
a consultation with the Fish and Wildlife Service,
which then prepares a "biological opinion" on the
potential harm. Eric Biber, Too Many Things to Do:
How to Deal with the Dysfunctions of Multiple-Goal
Agencies , 33 HARV. ENVTL. L. REV. 1, 53–54
(2009).9 In administering this
[983 F.3d 688]
statutory requirement, the Fish and Wildlife Service
has promulgated regulations governing the
consultation and its relationship with other agencies.
50 C.F.R. §§ 402.10 – 17. If a consulting agency may
issue regulations that impact many unnamed
agencies, it is not clear why Labor, with Homeland
Security's blessing, cannot promulgate regulations to
structure its consulting role. Based on statutory
circumstances, history, and similar laws, we find
that the unnamed consulting agency—which
Homeland Security may choose—has implicit
rulemaking authority that may overlap with
Homeland Security's authority in a symbiotic
relationship set out by the statute.
The Eleventh Circuit rejected this implicit delegation
for Labor to rulemake based on its role as a
consulting agency because this would mean that "any
federal employee with whom the Secretary of
[Homeland Security] deigns to consult would then
32a

have the authority to issue legislative rules to
structure [his] consultation with Homeland
Security." Bayou Lawn , 713 F.3d at 1084. We find
this concern unwarranted.10 Homeland Security
lacks unlimited discretion to consult with any
agency, much less any federal employee. The statute
requires "consultation with appropriate agencies of
the Government." 8 U.S.C. § 1184(c)(1) (emphasis
added). Not only must the consulting party be an
agency rather than any employee, but it must be an
"appropriate" agency. Id . Even under Chevron
deference, some choices of "appropriate agencies"
would not be reasonable. Id .; Chevron, U.S.A., Inc. v.
Nat. Res. Def. Council, Inc. , 467 U.S. 837, 844, 104
S.Ct. 2778, 81 L.Ed.2d 694 (1984). What is
appropriate depends on the statutory circumstances,
including
the
definition
of
H-2B.
§
1101(a)(15)(H)(ii)(b). And if the agency does not
adequately explain its choices, it may be subject to
an arbitrary and capricious challenge. 5 U.S.C. §
706(2)(A). For example, Homeland Security might
consult with the Department of Commerce or the
Treasury Department if they could rationally tie that
choice to their statutory duty, such as a reliance on
whatever expertise those Departments might have
on wages and the labor market. Choosing the Fish
and Wildlife Service, on the other hand, is likely
impermissible as they would probably not be an
appropriate
agency
(barring
some
unusual
justification). This does not give Homeland Security
33a

carte blanche to bestow legislative rulemaking
authority on anyone in the executive branch. And
here Labor is an appropriate agency given their
expertise and historical role in providing information
on the availability of American workers. §
1101(a)(15)(H)(ii)(b) ; 20 C.F.R. § 621.3(a) (1968)
(original regulation requiring Labor to find that
American workers were unavailable); 8 C.F.R. §
214.2(h)(6)(iii)(A) (similar regulation today based on
H-2B definition); 73 Fed. Reg. 78,104, 78,110
(Homeland Security's review adds nothing to Labor's
expertise).
And even when Homeland Security chooses an
appropriate consulting agency, that agency does not
acquire unlimited rulemaking authority or even
authority commensurate with Homeland Security.
The Supreme Court has said that a regulation
[983 F.3d 689]
must be "reasonably related to the purposes of the
enabling legislation." Mourning v. Family Publ'ns
Serv., Inc. , 411 U.S. 356, 369, 93 S.Ct. 1652, 36
L.Ed.2d 318 (1973). The promulgating agency must
"establish a nexus between the regulations and some
delegation of the requisite legislative authority by
Congress." Chrysler Corp. v. Brown , 441 U.S. 281,
304, 99 S.Ct. 1705, 60 L.Ed.2d 208 (1979). So any
rules that Labor promulgates relating to H-2B visas
must relate to its consulting role, and that role is in
34a

part defined by Homeland Security's regulations
choosing them as the consulting agency and defining
their consultation. Homeland Security chose Labor
as the consulting agency, chose the form of
consultation as labor certifications, and required
Labor to determine the availability of American
workers and the effect on their wages. 8 C.F.R. §
214.2(h)(6)(iii)(A). Labor's consulting role and the
resulting gap in how to administer it is defined by
Homeland Security's regulations. As a result, Labor's
regulations must be reasonably related to
administering their labor certifications and making
the determinations about the labor market and
required wages. The regulations here relate to filling
the statutory gap of how to administer the required
consultation that Homeland Security has chosen.
The 2015 Rules do just that by establishing "the
process by which employers obtain a temporary labor
certification from [Labor] for use in petitioning
[Homeland Security]" and "the methodology for
determining the wage that a prospective H-2B
employer must pay." 80 Fed. Reg. 24,042, 24,046.
Homeland Security is limited in its ability to choose
an "appropriate" agency to consult with and, once
chosen, Labor is limited in its rulemaking authority.
But here, the 2015 Program and Wage Rules are well
within the scope of that limited authority as
designated by Congress.

35a

The 2015 Program and Wage Rules are valid
exercises of Labor's implied delegation to rulemake
as part of its duty as Homeland Security's chosen
consulting agency. This implied delegation is evident
from the statutory circumstances in the INA,
including the requirement that Homeland Security
engage in "consultation with appropriate agencies,"
the definition of H-2B, and Labor's rulemaking
powers for similar visas. While there are limits on
which agencies Homeland Security can choose and
on those agencies’ ability to rulemake, Labor's 2015
Program and Wage Rules fall within both
boundaries.
***
Agencies have wide latitude in administering the
programs Congress has tasked them with. But
agencies do not have unlimited power in the areas
they govern. As a result, those burdened by
regulations may challenge agency actions as
exceeding their statutory authority. Our job is to
police the boundary between permissible agency
actions that help fulfill the goals of the political
branches and agency overreach that threatens to
unjustly burden those they regulate and blur the
lines upholding the separation of powers.
As one of the three branches, however, we also have
our own limits. One of those limits comes from
Article III itself: standing. Here, Employers have
36a

shown standing to challenge the 2008 Rules and the
2015 Program and Wage Rules.11 Another type
[983 F.3d 690]
of limit can be set by Congress: statutes of
limitations. And Employers’ facial challenge to the
2008 Rules is time-barred.
Once we have shown that we are operating within
our lawful sphere, we can begin to examine the
validity of agency actions. In doing so, we find that
the 2015 Program and Wage Rules were properly
promulgated based on Congress’ implied delegation
to Labor as the consulting agency. The Government's
regulations stand, and the judgment of the district
court is therefore
AFFIRMED IN PART AND VACATED IN PART.
-------Notes:
A labor certification may be granted if United
States workers able to perform the temporary labor
are unavailable and the H-2B's employment will not
adversely affect similarly employed United States
workers. 8 C.F.R. § 21432(h)(6)(iii)(A).
1

Labor has had a hand in immigration since its
inception in 1913 and has expertise in wages and the
2

37a

labor market. See La. Forestry Ass'n, Inc. v. Solis
(LFA) , 889 F. Supp. 2d 711, 715–17 (E.D. Pa. 2012),
aff'd sub nom. La. Forestry Ass'n Inc. v. Sec'y U.S.
Dep't of Labor , 745 F.3d 653 (3d Cir. 2014). In 1968,
the Attorney General promulgated regulations
requiring employers to apply for labor certifications
from Labor as part of the Attorney General's duty to
consult. 8 C.F.R. § 214.2 (1968). The regulations
directed an administrator to issue a labor
certification "if he finds that qualified persons in the
United States are not available and that the terms of
employment will not adversely affect the wages and
working conditions of workers in the United States
similarly employed." 20 C.F.R. § 621.3(a) (1968) ; see
also 8 C.F.R. § 214.2(h)(6)(iv)(A). In turn, Labor
issued regulations to govern the labor-certification
process. 20 C.F.R. § 621.3 (1968) ; 33 Fed. Reg. 7570–
71 (1968). These regulations were justified under 8
U.S.C. §§ 1101 and 1184, which have not changed
since these rules. Id . Similar rules remained intact
for 50 years. See 43 Fed. Reg. 19,306 –18 (1978); 55
Fed. Reg. 50,510 (1990).
Before the 2008 Rules, Homeland Security could
review a petition de novo without a certification and
make a final determination regardless of Labor's
input. See 8 C.F.R. § 214.2(h)(6)(iv)(D), (E) (2008) ;
see also 31 Fed. Reg. 4446, 6611 (1966)
(countervailing evidence allowed). Under the 2008
Rules, an employer denied a certification was limited
3

38a

to review within Labor by its Board of Alien Labor
Certification Appeals. 73 Fed. Reg. 78,063 (to be
codified 20 C.F.R. § 655.33(a) ). Receiving a favorable
Labor determination is thus a condition precedent to
a petition to Homeland Security. 73 Fed. Reg. 78,127,
78,129. Homeland Security made this change
because it believed that Labor had the required
expertise and that Homeland Security's review
added nothing. 73 Fed. Reg. 78,104, 78,110.
Our sister circuits are divided on whether to
recognize an equitable exception to the statute of
limitations in 28 U.S.C. § 2401(a) when a plaintiff
raises an ultra vires challenge to agency action.
Here, however, Plaintiffs have not relied on such an
exception. Although this is an important issue
deserving of the Court's attention, we will forgo
weighing in until the matter is properly presented.
4

Employers argue that the D.C. Circuit's "reopening
doctrine" renders their claim timely. In the D.C.
Circuit, the reopening doctrine applies to restart the
statute-of-limitations clock where an agency
"serious[ly], substantive[ly] reconsider[s]" an earlier
regulation. Nat'l Min. Ass'n v. U.S. Dep't of Interior ,
70 F.3d 1345, 1352 (D.C. Cir. 1995). Even assuming
this Court would adopt the doctrine—an issue we
need not reach today—we agree with the district
court that it would not apply here because "[n]one of
the 2015 Rules reopened [Homeland Security]’s 2008
decision to require an employer to first obtain ‘a
5

39a

favorable labor certification determination’ from
[Labor] before applying for an H-2B visa." Outdoor
Amusement Bus. Ass'n , 334 F. Supp. 3d at 713.
Although Employers also sought to challenge
certain enforcement rules passed in 2015, they lack
standing to do so. See 80 Fed. Reg. 24,084. As part of
the 2015 Rules, Labor and Homeland Security
promulgated 2015 Enforcement Rules that "set[ ]
forth enforcement procedures and remedies" under
Homeland Security's delegation of enforcement
authority to Labor. See 80 Fed. Reg. 24,046
(Enforcement Rule) ; 80 Fed. Reg. 24,131 ; 73 Fed.
Reg. 78,115, 78130 ; 8 C.F.R. § 214.2(h)(6)(ix) ; see
also 8 U.S.C. § 1184(c)(14)(B) (statutory authority to
delegate enforcement powers).
6

No Employer has shown that it was or will be injured
by the 2015 Enforcement Rules. In fact, Employers
have made no specific claims against the 2015
Enforcement Rules. J.A. 91–110; Supplemental Br. of
Employers 4. Instead, they claim generally that the
Enforcement Rules are included in the 2015 Rules.
But plaintiffs must show standing for each claim and
form of relief. Without having alleged a past injury
or made specific claims against the 2015
Enforcement Rules, Employers lack standing to
enjoin those rules.
See 8 U.S.C. § 1184(c)(1) ; Consult , 3 Oxford
English Dictionary 799–800 (2d ed. 1989) ("To confer
7

40a

about, deliberate upon, debate, discuss, consider (a
matter)"), ("To ask advice of, seek counsel from; to
have recourse to for instruction, guidance, or
professional advice"), but see id . ( [T]o seek
permission or approval from (a person) for a
proposed action"). See also Bennett v. Spear , 520
U.S. 154, 169, 117 S.Ct. 1154, 137 L.Ed.2d 281
(1997) (noting that while the duty to "consult" in
section 7 of the Endangered Species Act is
technically "advisory," in effect it has a "powerful
coercive effect" that renders the "consultation"
essentially nondiscretionary); Lopez v. Davis , 531
U.S. 230, 243–44, 121 S.Ct. 714, 148 L.Ed.2d 635
(2001) ("[E]ven if a statutory scheme requires
individualized determinations ... the decisionmaker
has the authority to rely on rulemaking to resolve
certain issues of general applicability unless
Congress clearly expresses an intent to withhold that
authority." (internal quotations omitted)).
We assume that at least some of these rules are
legislative rather than procedural. Compare
Mendoza v. Perez , 754 F.3d 1002, 1023–25 (D.C. Cir.
2014), with 20 C.F.R. § 655.20.
8

If the "biological opinion" finds a potential harm, it
"must outline any ‘reasonable and prudent
alternatives’ that the Service believes will avoid that
consequence," which the acting agency must
consider. Bennett v. Spear , 520 U.S. 154, 158, 117
S.Ct. 1154, 137 L.Ed.2d 281 (1997). While these
9

41a

suggestions are "advisory" and an agency could
theoretically reject them, the Supreme Court has
found that the potential liability from not following
the advice has a "powerful coercive effect" that
renders them essentially nondiscretionary. Id . at
169, 117 S.Ct. 1154. In fact, unless the agency
follows the "advice" given in the consultation, an
incidental taking can lead to "substantial civil and
criminal penalties, including imprisonment." Id . at
170, 117 S.Ct. 1154.
Because we find that Labor has an implied
delegation, there is no subdelegation issue.
Homeland Security did not subdelegate any of its
power; it carried out its statutory duty to consult by
choosing to require labor certifications from Labor,
as various agencies have historically done. Labor, as
the consulting agency, then got its own implied
delegation from Congress to administer its
consulting duty, not a subdelegation from Homeland
Security.
10

As mentioned above, the Employers lack standing
to challenge the 2015 Enforcement Rules. Thus, we
must vacate the portion of the district court's opinion
that found the 2015 Enforcement Rules valid on the
merits. Employers’ challenge to the 2015
Enforcement Rules must be dismissed without
prejudice. S. Walk at Broadlands Homeowner's
Ass'n, Inc. v. OpenBand at Broadlands, LLC , 713
F.3d 175, 185 (4th Cir. 2013) ("A dismissal for lack of
11

42a

standing—or any other defect in subject matter
jurisdiction—must be one without prejudice, because
a court that lacks jurisdiction has no power to
adjudicate and dispose of a claim on the merits.").

43a

Appendix B – Court of Appeals Order Denying
Rehearing En Banc
FILED: February 16, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-2370
(1:16-cv-01015-ELH)
___________________
OUTDOOR AMUSEMENT BUSINESS
ASSOCIATION, INC.; MARYLAND STATE
SHOWMEN'S ASSOCIATION, INC.; THE SMALL
AND SEASONAL BUSINESS LEGAL CENTER;
LASTING IMPRESSIONS LANDSCAPE
CONTRACTORS, INC.; THREE SEASONS
LANDSCAPE CONTRACTING SERVICES, INC;
NEW CASTLE LAWN & LANDSCAPE, INC.
Plaintiffs - Appellants
v.
DEPARTMENT OF HOMELAND SECURITY;
UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES; DEPARTMENT OF
LABOR; EMPLOYMENT & TRAINING
ADMINISTRATION; WAGE & HOUR DIVISION
Defendants - Appellees
and
MARGHARITA KURI; TIMOTHY KING; HENRY
WOJDYLO; RONALD NYENHUIS; SHIRLEY
44a

HARMON; ANTONIO RIVERA MARTINEZ;
ANDREW MITSCHELL; COMITE DE APOYO A
LOS TRABAJADORES AGRICOLAS (CATA);
PINEROS Y CAMPESINOS UNIDOS DEL
NOROESTE; NORTHWEST FOREST WORKERS
CENTER
Amici Supporting Appellees
___________________
ORDER
___________________
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en
banc.
Entered at the direction of the panel: Judge
Keenan, Judge Wynn, and Judge Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

45a

Appendix C – District Court Opinion
334 F.Supp.3d 697
United States District Court, D. Maryland.
OUTDOOR AMUSEMENT BUSINESS
ASSOCIATION, INC., et al., Plaintiffs,
v.
DEPARTMENT OF HOMELAND SECURITY et
al., Defendants.
Civil Action No. ELH-16-1015
Signed 09/12/2018
As Amended 10/11/2018
Attorneys and Law Firms
*701 R. Wayne Pierce, The Pierce Law Firm, LLC,
Annapolis, MD, Leon R. Sequeira, Pro Hac Vice,
Arlington, VA, for Plaintiffs.
Erez Reuveni, Joshua S. Press, United States
Department of Justice, Glenn Matthew Girdharry,
United States Department of Justice Office of
Immigration Litigation, Kathryne Gray, Washington,
DC, for Defendants.

MEMORANDUM OPINION
Ellen Lipton Hollander, United States District Judge
This case concerns a challenge to the validity of
certain rules and regulations issued by the
46a

Department of Homeland Security and the
Department of Labor, pertaining to the H-2B visa
program (the “Program”). The Program governs the
temporary employment of non-immigrant foreign
workers in non-agricultural businesses.
Plaintiffs are business entities who rely on the
Program to obtain workers, as well as trade
associations whose members rely on the Program to
maintain their workforces. ECF 44 (Second Amended
Complaint), ¶¶ 12-17. In particular, they are
Outdoor Amusement Business Association, Inc.;
Maryland State Showmen’s Association, Inc.; The
Small and Seasonal Business Legal Center; Lasting
Impressions Landscape Contractors, Inc.; Three
Seasons Landscape Contracting Services, Inc.; and
New Castle Lawn & Landscape, Inc. They have sued
the following defendants, id. ¶¶ 18-22: the
Department of Homeland Security (“DHS”); the
United States Citizenship & Immigration Services
(“USCIS”), a component agency of DHS that operates
service centers for adjudicating H-2B visas; the
Department of Labor (“DOL”); the Employment &
Training Administration (“ETA”), a component
agency of DOL that participates in promulgating
legislative regulations to administer the H-2B
program; and the Wage & Hour Division (“WHD”),
another component of DOL, which promulgates
legislative regulations “to enforce substantive
requirements ... imposed by DOL on employers in the
H-2B program.” Id. ¶ 22. At times, I shall refer to the
defendants collectively as the “Government.”
Amici curiae are individual U.S. workers employed
in occupations in which H-2B workers are also
47a

employed. See ECF 83 (Order granting amicus
status). Collectively, amici support the Government.
The Second Amended Complaint (ECF 44), filed on
July 5, 2016, is the operative *702 complaint.
Plaintiffs seek declaratory and injunctive relief,
claiming that the regulations promulgated by
defendants to administer the Program are unlawful
because DHS, to which Congress has delegated
responsibility for the Program, impermissibly
redelegated substantial parts of the Program’s
standards and administration to DOL. See ECF 44.
The suit focuses on four sets of legislative rules
related to the Program. ECF 92-1 at 13-14. First, it
concerns the 2015 Interim Final Rule, Temporary
Non-Agricultural Employment of H-2B Aliens in the
United States, promulgated on April 29, 2015, at 80
Fed. Reg. 24042. That rule consists of two
components: the “2015 Program Rules,” published at
20 C.F.R. § 655, and the “2015 Enforcement Rules” (a
subset of the 2015 Program Rules, often referred to
separately), published at 29 C.F.R. § 503. See ECF
44, ¶ 2. Next, plaintiffs challenge the 2015 Final
Rule, Wage Methodology for the Temporary NonAgricultural Employment H-2B Program, also
promulgated on April 29, 2015, at 80 Fed. Reg.
24146. Id. This rule includes the “2015 Wage Rule,”
also published at 20 C.F.R. § 655. I shall refer to the
2015 Program Rules, the 2015 Wage Rule, and the
2015 Enforcement Rules collectively as the “2015
Rules.”1 Last, plaintiffs challenge a number of
subsections of what they term “DHS’s LaborCertification Regulations,” published in 2008 at 8
C.F.R. §§ 214.1 and 214.2. I shall refer to these rules
48a

as the 2008 Labor-Certification Regulations.
In the lengthy Second Amended Complaint, plaintiffs
outline the purpose of the Program, as follows, id. ¶
26:
Since 1952, the purpose of the temporary
employment H visas, including the H-2B
program, has been to alleviate U.S. labor
shortages for temporary work and provide
nonimmigrant alien labor to fill those
temporary or seasonal positions. The H-2B
program protects the interests of both U.S.
non-agricultural workers and employers, as
well as the U.S. economy as a whole,
through the preservation of jobs, work
opportunities, and employers in the United
States. The H-2B program is a legallyauthorized source of employees for difficultto-fill temporary positions, and supports the
employment of countless other U.S. workers
whose jobs rely on the temporary work
performed by foreign workers.
The Second Amended Complaint contains six counts.
In Count I, plaintiffs assert that the 2015 Program
Rules, the 2015 Wage Rule, and the 2008 LaborCertification
Regulations
exceed
defendants’
statutory authority, citing 5 U.S.C. §§ 558 and
706(2)(C). Count II challenges the disputed
regulations as arbitrary and capricious, citing 5
U.S.C. § 706(2)(A). In Count III, plaintiffs assert that
the regulations are unconstitutional and violate 5
U.S.C. § 706(2)(B). Count IV is titled “Compulsion of
Agency Action Unlawfully Withheld.” It is predicated
on 5 U.S.C. § 706(1). Count V is titled “Mandamus,”
49a

pursuant to the Mandamus Act, 28 U.S.C. § 1361,
and the All Writs Act, 28 U.S.C. § 1651. Finally,
Count VI seeks a declaratory judgment, pursuant to
the Declaratory Judgment Act, 28 U.S.C. § 2201.2
Following the submission of the voluminous
Administrative Record (see ECF 46, *703 ECF 87,
ECF 129),3 the parties submitted cross-motions for
summary judgment. Plaintiffs’ motion (ECF 91) is
supported by a memorandum of law (ECF 92-1)
(collectively, “Plaintiffs’ Motion”), and exhibits.4
Defendants filed a combined opposition to Plaintiffs’
Motion, along with their own motion for summary
judgment (ECF 102), supported by a Memorandum of
Law. ECF 102-1 (collectively, “Defendants’ Motion”).
Thereafter, plaintiffs filed a combined opposition to
Defendants’ Motion and reply. See ECF 111-1
(“Plaintiffs’ Reply”).5 Defendants also replied. ECF
113 (“Defendants’ Reply”). And, amici submitted a
memorandum of law in opposition to Plaintiffs’
Motion. ECF 105 (“Amici Opposition”).
The Court held oral argument on August 14, 2018.
ECF 122.6 Following the hearing, the Court invited
limited
supplemental
briefing.
ECF
121.
Supplemental briefing was submitted by amici (ECF
123), plaintiffs (ECF 124), and the Government (ECF
125). The transcript for the motions hearing is
docketed at ECF 126.
For the reasons that follow, I shall grant Defendants’
Motion and deny Plaintiffs’ Motion.
I. Factual and Procedural Summary

50a

A. H-2B Visa Program
1. Program History
In 1952, as part of the Immigration and Nationality
Act (“INA”), 66 Stat. 163, as amended, 8 U.S.C. §
1101 et seq., “Congress created the nonimmigrant H2 visa category for temporary agricultural and nonagricultural employment that did not require
advanced education, skills, or training.” ECF 44, ¶
25. Until 1986, one program existed for all temporary
foreign workers. “Congress decided, however, that
the earlier program did not ‘fully meet the need for
an efficient, workable and coherent program that
protect[ed] the interests of agricultural employers
and workers alike’ and therefore amended the INA
as part of the Immigration Reform and Control Act of
1986 to provide for two separate programs: the H-2A
program for agricultural workers and the H-2B
program for non-agricultural workers.” Bayou Lawn
& Landscape Servs. v. Johnson, 173 F. Supp. 3d
1271, 1276 (N.D. Fla. 2016) (quoting H.R. Rep. No.
99-682, pt. 1, at 80); see also Immigration Reform
and Control Act of 1986 (“IRCA”), Pub. L. No. 99-603,
§ 301(a), 100 Stat. 3359, 3411 (codified at 8 U.S.C. §
1101(a)(15)(H)(ii)(a)-(b) ).
The H-2B visa program permits U.S. employers to
recruit and hire foreign workers to fill temporary
unskilled, non-agricultural positions for which
domestic workers cannot be located. See 8 U.S.C. §
1101(a)(15)(H)(ii)(b); Louisiana Forestry Ass’n, Inc. v.
Sec’y of Labor, 745 F.3d 653, 658 (3d Cir. 2014). An
H-2B employee is defined as a nonimmigrant alien
“having a *704 residence in a foreign country which
51a

he has no intention of abandoning who is coming
temporarily to the United States to perform other
temporary service or labor if unemployed persons
capable of performing such service or labor cannot be
found
in
this
country....”
8
U.S.C.
§
1101(a)(15)(H)(ii)(b).
The statute identifies the Attorney General as the
person responsible for determining whether to issue
an H-2B visa. See id. § 1184(c)(1). However, Congress
transferred enforcement of immigration laws to the
Secretary of DHS under the Homeland Security Act
of 2002. See Homeland Security Act of 2002, Pub. L.
No. 107-296, § 402, 116 Stat. 2135, 2178 (2002).
Therefore, DHS is now charged with determining,
“upon petition of the importing employer,” whether
to grant an H-2B visa “after consultation with
appropriate agencies of the Government.” 8 U.S.C. §
1184(c)(1).
2. DOL’s Involvement
Pursuant to the statutory direction to consult with
appropriate agencies, DHS and its predecessors have
for some 50 years looked to DOL for advice on
whether United States workers capable of
performing the desired temporary services or labor
are available, and whether the alien’s employment
will adversely affect the wages and working
conditions of similarly employed United States
workers. See, e.g., 8 C.F.R. § 214.2(h)(6)(iii)(A). In
1968, DOL first issued formal regulations
establishing standards and procedures for certifying
employers’ requests to import H-2 workers. See 33
Fed. Reg. 7570 (May 22, 1968). DOL later
supplemented the regulations with informal, non52a

binding guidance letters, which were promulgated
without notice and comment. See Comite de Apoyo a
los Trabajadores Agricolas v. Solis, 09-240, 2010 WL
3431761, at *2 (E.D. Pa. Aug. 30, 2010) (“CATA I ”)
(discussing issuance of guidance letters). Then, in
2008, DOL published another formal regulation
governing the labor certification process. See Labor
Certification Process and Enforcement for Temporary
Employment in Occupations Other Than Agriculture
(H-2B Workers), 73 Fed. Reg. 78020 (Dec. 19, 2008)
(“2008 DOL Rule”). These regulations concerned,
inter alia, the wages that employers were required to
pay H-2B workers. See 73 Fed. Reg. at 78056-57.
These 2008 rules issued by DOL were the precursors
to the 2015 Wage Rule and the 2015 Program Rules,
and gave rise to a number of challenges to the
administration of the H-2B program, of which this
case is one.
Of importance here, beginning in 2008, DHS also
began to require that employers petitioning DHS for
H-2B visas must “apply for a temporary labor
certification with the Secretary of Labor.” 8 C.F.R. §
214.2(h)(6)(iii)(A). Pursuant to certain DHS labor
certification regulations, issued in 2008, DOL is
directed to determine whether (1) qualified workers
in the United States are available to fill the
petitioning employer’s job and whether (2) an alien’s
employment will adversely affect wages and working
conditions of similarly employed U.S. workers. Id. If,
after reviewing an employer’s job offer and
recruitment efforts, the Secretary of Labor
determines that U.S. workers are not available to fill
the jobs described in the employer’s application and
that the offered terms of work will not adversely
53a

affect similarly employed U.S. workers, DOL issues a
“temporary labor certification” that the employer
must attach to the H-2B visa petition it submits to
DHS. id. §§ 214.2(h)(6)(iii)(C) and 214.2(h)(6)(iv)(A).
Notably, a “petitioner may not file an H-2B petition
unless the United States petitioner has applied for a
labor certification with the Secretary of Labor ...
within the *705 time limits prescribed or accepted by
each, and has obtained a favorable labor certification
determination....” Id. § 214.2(h)(6)(iii)(C). Thus,
without a temporary labor certification from DOL, a
petitioner cannot obtain H-2B visas. DHS provides
no mechanism for an employer to challenge DOL’s
determination on this question.
On April 29, 2015, DHS and DOL jointly issued
revised H-2B regulations: the Temporary NonAgricultural Employment of H-2B Aliens in the
United States, 80 Fed. Reg. 24042 (Apr. 29, 2015)
(“2015 Interim Final Rule”), and the Wage
Methodology for the Temporary Non-Agricultural
Employment H-2B Program, 80 Fed. Reg. 24146
(Apr. 29, 2015) (“2015 Final Rule”). ECF 44, ¶ 2.
Both the 2015 Interim Final Rule and the 2015 Final
Rule are in effect.7
The 2015 Interim Final Rule and 2015 Final Rule
replace the prior H-2B regulations published on
December 19, 2008, at 73 Fed. Reg. 78020 (“2008
Program Rules”). The 2008 Program Rules were
regarded as “vulnerable to challenges by employers
in current and future enforcement proceedings based
on the ground that the regulations ... are void
because DOL exceeded its statutory authority in
54a

unilaterally issuing the 2008 rule.” See 80 Fed. Reg.
at 24048-49.
B. The Statutes
Several sections of the INA are relevant here. As a
general matter, the “Secretary of Homeland Security
[is] charged with the administration and
enforcement of this chapter and all other laws
relating to the immigration and naturalization of
aliens.” 8 U.S.C. § 1103(a)(1). As such, Congress has
directed the Secretary to “establish such regulations
... and perform such other acts as he deems
necessary for carrying out his authority under the
provisions of this chapter.” Id. § 1103(a)(3). Notably,
Congress has provided that the Secretary “is
authorized to confer or impose upon any employee of
the United States, with the consent of the head of the
Department or other independent establishment
under whose jurisdiction the employee is serving,
any of the powers, privileges, or duties conferred or
imposed by this chapter or regulations issued
thereunder upon officers or employees of the
Service.” Id. § 1103(a)(6). “Service means U.S.
Citizenship and Immigration Services, U.S. Customs
and Border Protection, and/or U.S. Immigration and
Customs Enforcement, as appropriate in the context
in which the term appears.” 8 C.F.R. § 1.2.
One of the Secretary’s statutory responsibilities is
the administration of the H-2B visa program. In
particular, “[t]he admission to the United States of
any alien as a nonimmigrant shall be for such time
and under such conditions as the [Secretary] may by
regulations prescribe.” 8 U.S.C. § 1184(a)(1).8 Section
1101(a)(15)(H)(ii)(b) of Title 8 is the source of the
55a

term “H-2B.” As noted, it defines an H-2B worker as
a nonimmigrant alien “having a residence in a
foreign country which he has no intention of
abandoning who is coming temporarily to the United
States to perform other temporary service or labor if
unemployed *706 persons capable of performing such
service or labor cannot be found in this country....”
Section 1184(c)(1) of Title 8 of the U.S. Code
provides: “The question of importing any alien as a
nonimmigrant ... in any specific case or specific cases
shall be determined by the [Secretary of DHS], after
consultation with appropriate agencies of the
Government, upon petition of the importing
employer.” (Emphasis added.) This case concerns,
among other issues, the breadth of the term
“consultation,” which is not defined in the statute, as
well as the scope of the Secretary’s ability to “confer
or impose upon any employee of the United States ...
any of the powers, privileges, or duties conferred or
imposed ... upon officers or employees of the Service.”
C. Litigation History
Consistent with the regulations described above,
DOL has established various procedures to
determine whether a qualified U.S. worker is
available to fill the job described in the employer’s
petition. Although, as noted, DOL had issued
regulations concerning labor certifications as far
back as 1968, for many years DOL set forth specific
requirements on employers “via a series of General
Administration Letters (‘GALs’) and Training and
Employment Guidance Letters (‘TEGLs’).” CATA I,
2010 WL 3431761, at *2. These letters were
promulgated without notice and comment. See id. In
56a

2008, however, DOL promulgated a regulation
designed “to modernize the procedures for the
issuance of labor certifications to employers
sponsoring H-2B nonimmigrants.” 73 Fed. Reg.
78020, at 78020 (Dec. 19, 2008) (codified at 20 C.F.R.
§§ 655-56) (“2008 DOL Rule”). The 2008 DOL Rule
contained two major components: the 2008 Program
Rules, which set forth the criteria for obtaining a
temporary labor certification (73 Fed. Reg. at 78058),
and the 2008 Wage Rule, which established the
method for determining the prevailing wage for labor
certification purposes. See id. at 78056.
“In order to issue a labor certification, the DOL must
determine as a threshold matter, that qualified
United States workers are not available to fill the
position for which an employer seeks foreign
workers.” Comite de Apoyo a los Trabajadores
Agricolas v. Solis, 933 F.Supp.2d 700, 704 (E.D. Pa.
2013) (“CATA II ”); see 8 C.F.R. § 214.2(h)(6)(iii).
Because the availability of workers is inextricably
linked to an employer’s wages, “the DOL may only
issue labor certifications where United States
workers are unavailable to fill a given position at the
occupation’s ‘prevailing wage.’ ” Id. (citing 2008 DOL
Rule). As a result, before applying for a labor
certification, “an employer must first obtain from the
DOL a prevailing wage determination for the area of
intended employment, submit a work order with a
state workforce agency,” and then “advertise the
position at a wage equal to or higher than the
prevailing wage, as established by the DOL.” Id. at
705 (citing 2008 DOL Rule).
The

2008

Wage

Rule
57a

contained

“numerous

significant changes from the prior regime.” CATA I,
2010 WL 3431761, at *3. As a result, in 2009, shortly
after the new regulations took effect, a group of
plaintiffs filed suit in the Eastern District of
Pennsylvania, challenging several substantive
aspects of the 2008 DOL rule. Id. at *1. The CATA I
Court upheld various aspects of the challenged rule.
See id. at *12-14. But, it vacated other aspects of the
2008 DOL Rule and remanded the rule to DOL, “so
that the agency may correct its errors.” See id. at
*24. In particular, CATA I held invalid elements of
the 2008 DOL Rule that pertained to the calculation
of a prevailing wage. See id.; 73 Fed. Reg. at 78056.
*707 Following CATA I, DOL promulgated a notice
of proposed rulemaking (“NPRM”) with respect to
wage rate calculations. Wage Methodology for the
Temporary Non–Agricultural Employment H-2B
Program, 75 Fed. Reg. 61578-01, 61579 (October 5,
2010) (“2010 Wage NPRM”). After allowing for notice
and comment, DOL announced a revised prevailing
wage regulation in 2011. Wage Methodology for the
Temporary Non-Agricultural Employment H-2B
Program, 76 Fed. Reg. 3452 (Jan. 19, 2011) (“2011
Wage Rule”). Although DOL initially set January 1,
2012, as the effective enforcement date for the 2011
Wage Rule, as of March 2013, DOL was still using
the 2008 Wage Rule declared invalid in CATA I. See
CATA II, 933 F.Supp.2d at 708-09. The CATA
plaintiffs successfully challenged DOL’s continued
use of the partially invalid 2008 DOL Rule, and in
CATA II the Eastern District of Pennsylvania
vacated the 2008 Wage Rule and barred its
continued use. See id. at 709, 716.

58a

At the same time that litigation was ongoing about
DOL’s 2008 Wage Rule, DOL began to promulgate a
series of separate rules that addressed a broader
range of revisions to the H-2B labor certification
process, many of which were prompted by CATA I.
Temporary Non-Agricultural Employment of H-2B
Aliens in the United States, 76 Fed. Reg. 15130-01
(Mar. 18, 2011) (2011 Program Rules). DOL issued a
final version of this rule in 2012. Temporary NonAgricultural Employment of H-2B Aliens in the
United States, 77 Fed. Reg. 10038, 10038-10146 (Feb.
21, 2012) (2012 Program Rules).
In 2012, other plaintiffs in Florida obtained a
“preliminary injunction prohibiting DOL from
enforcing” the 2012 Program Rules while litigation
on the merits was ongoing. Bayou Lawn &
Landscape Servs. v. Solis, 3:12-183-MCR-CJK, 2012
WL 12887385, at *1 (N.D. Fla. Apr. 26, 2012)
(‘‘Bayou I’’). The Eleventh Circuit affirmed the
preliminary injunction, on the ground that DOL
lacked the authority to issue rules pertaining to the
H-2B program, and remanded the case to the district
court. Bayou Lawn & Landscape Servs. v. Sec’y of
Labor, 713 F.3d 1080, 1085 (11th Cir. 2013).
Thereafter, on the merits, the district court held that
DOL lacked the “authority to engage in legislative
rulemaking under the H-2B program,” and so it
vacated the 2012 Program Rules. Bayou Lawn &
Landscape Servs. v. Perez, 81 F.Supp.3d 1291, 1300
(N.D. Fla. 2014) (“Bayou II”).
By the time the Eleventh Circuit considered the
Government’s appeal, DOL and DHS had issued the
2015 Rules. As a result, the challenge to the 2012
59a

Program Rules was rendered moot, and the Eleventh
Circuit vacated the district court’s order and
remanded the case. Bayou Lawn & Landscape Servs.
v. Sec’y, U.S. Dep’t of Labor, 621 F. App’x 620, 621
(11th Cir. 2015)(per curiam).
In 2012, around the same time as the Bayou I
challenge, other plaintiffs in the Eastern District of
Pennsylvania (not those in the CATA cases),
challenged DOL’s rules on a theory similar to the one
used in Bayou I. See Louisiana Forestry Ass’n, Inc. v.
Solis, 889 F.Supp.2d 711, 720 (E.D. Pa. 2012). In
that case, however, the Eastern District of
Pennsylvania ruled that DOL did have the authority
to promulgate the 2011 Wage Rule. Id. at 731.The
Third Circuit subsequently affirmed, in an apparent
rejection of the Eleventh Circuit’s holding in Bayou.
Louisiana Forestry Ass’n Inc. v. Sec’y U.S. Dep’t of
Labor, 745 F.3d 653, 669 (3d Cir. 2014) (affirming
Louisiana Forestry, 889 F.Supp.2d 711).9
*708 In response to CATA II’s vacatur of the 2008
Wage Rule and Bayou’s holding that DOL lacked
rulemaking authority for the H-2B program, DHS
and DOL jointly promulgated an interim final rule
(“IFR”) in 2013, to address wage determinations.
Wage Methodology for the Temporary NonAgricultural Employment H-2B Program, Part 2, 78
Fed. Reg. 24047 (Apr. 24, 2013) (“2013 DHS/DOL
Wage IFR”). But, DOL had not entirely abandoned
the system used under the 2008 Wage Rule. See
CATA v. Perez, 774 F.3d 173, 182 (3d Cir. 2014)
(“CATA III ”). Although the 2013 DHS/DOL Wage
IFR formally eliminated the use of skill levels, it did
not alter the practice of “allowing a prevailing wage
60a

to be set by use of either” a Bureau of Labor
Statistics Occupational Employment Statistics
Survey (OES) or a “private wage survey.” CATA III,
774 F.3d at 181; see 2013 DHS/DOL Wage IFR, 78
Fed. Reg. at 24061.
In 2014, DOL promulgated a proposed rule related to
the Wage Methodology calculations for the H-2B
program. Wage Methodology for the Temporary NonAgricultural Employment H-2B Program, 79 Fed.
Reg. 14450 (Mar. 14, 2014). That rule indicated
DOL’s intent to conduct future rulemaking on the
issue of the prevailing wage calculations but painted
“an uncertain picture” of DOL’s future plans in this
respect. See CATA III, 774 F.3d at 182. The district
court ruled in DOL’s favor “on the ground that the
proposed 2014 or 2015 rule-making process could
result in a prospective change of the rules at issue
such that plaintiffs’ challenge was not ripe for
adjudication.” Id. at 182; see Comite de Apoyo a los
Trabajadores Agricolas v. Perez, 14-2657, 2014 WL
4100708 (E.D. Pa. July 23, 2014), rev’d and
remanded, CATA III, 774 F.3d 173.
The CATA plaintiffs sued again, in the Eastern
District of Pennsylvania, challenging on various
grounds DOL’s continued use of private wage
surveys. See CATA III, 774 F.3d at 181-82. In July
2014, the district court dismissed the case, without
prejudice, on procedural grounds. Id. at 182. The
Third Circuit reversed and remanded. Id. at 191-92.
Three months after CATA III, the Northern District
of Florida vacated the 2008 DOL Rule and found,
following Bayou, that DOL had no independent
61a

authority to issue legislative rules for the H-2B
program. Perez v. Perez, No. 14-cv-682, 2015 U.S.
Dist. LEXIS 27606 (N.D. Fla. Mar. 4, 2015). “Based
on the Perez vacatur order and the permanent
injunction, DOL ceased operating the H-2B program
to comply immediately with the court’s order.” 80
Fed. Reg. 24151. The combination of CATA III and
Perez “left DOL without a complete methodology or
any procedures to set prevailing wages in the H-2B
program.” Id. at 24152.10
Because of the problems the Perez order caused, the
Perez Court temporarily *709 stayed its order until
May 2015. In April 2015, to prevent “another
program hiatus if and when the temporary stay
expire[d],” DOL and DHS jointly issued the 2015
Wage Rule. See id. at 24152. According to the
agencies, the 2015 Wage Rule “implements a key
component of DHS’s determination that it must
consult with DOL on the labor market questions
relevant to its adjudication of H-2B petitions.” Id. at
24148. The 2015 Wage Rule finalized the 2013
DHS/DOL Wage IFR. See id. at 24151.
As a result of the Perez order and the temporary
stay, DHS and DOL invoked the “good cause”
exception in the Administrative Procedure Act
(“APA”) to make the 2015 Wage Rule effective
immediately. Id. at 24152-53; see also 5 U.S.C. §
553(d)(3). Although the agencies did not solicit
additional comments before promulgating the 2015
Wage Rule, because that rule is similar to the 2013
DHS/DOL Wage IFR, the agencies concluded that
the public had already had an adequate “opportunity
to comment on all aspects of this final rule in
62a

response to the 2013 IFR.” Id. at 24151.
Simultaneous with the 2015 Wage Rule, DHS and
DOL jointly issued the 2015 Interim Final Rule
containing the 2015 Program Rules and the 2015
Enforcement Rules. The 2015 Program Rules are
“virtually identical” to the 2012 Program Rules.
Temporary Non-Agricultural Employment of H-2B
Aliens in the United States, 80 Fed. Reg. 24042-01,
24043 (Apr. 29, 2015) (2015 Program Rules).
However, the departments elected to reissue the rule
jointly, in light of the various challenges to “DOL’s
authority to issue its own legislative rules to carry
out its duties under the INA.” Id. at 24045 (citing
Bayou, 713 F.3d 1080).
As with the 2015 Wage Rule, the departments
invoked the APA’s “good cause” exception to proceed
without notice and comment. Id. at 24047.
Nevertheless, the departments sought “public input
on every aspect of this interim final rule (even
though virtually every provision herein has already
gone through one round of notice and comment), and
[planned to] assess that input and determine
whether changes are appropriate.” Id. at 24050.
The CATA plaintiffs once again challenged these
rules. In CATA IV, the plaintiffs challenged only the
2015 Wage Rule. CATA v. Perez, 148 F.Supp.3d 361,
364 (D.N.J. 2015) (“CATA IV ”). The district court
ruled for the Government, finding that the plaintiffs
lacked standing. Id. at 374. And, in Bayou III,
plaintiffs challenged the validity of each of the 2015
Rules. Bayou Lawn & Landscape Servs. v. Johnson,
173 F.Supp.3d 1271, 1276 (N.D. Fla. 2016) (“Bayou
63a

III”). In Bayou III, the district court found that the
plaintiffs in that case had standing, but their claims
failed on the merits. Id. at 1292.
D. Plaintiffs’ Suit
As discussed, challenges to recent H-2B regulations
have taken one or both of two approaches: Some
contest the substance of the DHS or DOL Program
regulations, such as the methodology by which H-2B
wages are determined, and some contest the
structure of the Program.
In this case, plaintiffs challenge the structure of the
Program. They contend that DHS and DOL violated
the INA and the APA, codified in various sections of
Title 5 of the U.S. Code, as well as the United States
Constitution, by jointly issuing certain regulations
with respect to the Program. ECF 44, ¶ 4; see also id.
¶¶ 94, 96. In particular, plaintiffs argue that DOL
has no lawful authority to engage in legislative
rulemaking with regard to the Program. See ECF 921 at 13.
According to plaintiffs, “Congress has granted DHS
sole rulemaking and adjudicative *710 authority for
the H-2B program, has not granted such authority to
DOL, has not granted shared or joint authority
among multiple Departments, and has not permitted
DHS to redelegate such authority to DOL.” Id. As a
result, plaintiffs maintain that DHS has unlawfully
redelegated its authority to DOL, and the “jointlyissued” 2015 Rules promulgated by DHS and DOL
are invalid. Id. at 13-15.
In particular, plaintiffs contest the 2015 Program
64a

Rules, the 2015 Wage Rule, and the 2015
Enforcement Rules, as well as the 2008 LaborCertification Regulations. The 2015 Rules establish
“the process by which employers obtain a temporary
labor certification from DOL for use in petitioning
DHS to employ a[n H-2B] nonimmigrant worker,” 80
Fed. Reg. at 24042; “the methodology by which DOL
calculates the prevailing wages to be paid to H-2B
workers and U.S. workers recruited in connection
with application for temporary labor certification,”
id. at 24146; and “enforcement procedures and
remedies pursuant to DHS’s delegation of
enforcement authority to DOL.” See id. at 24046.
Specifically, the 2015 Program Rules “expand[ ] the
ability of U.S. workers to become aware of the job
opportunities in question and to apply for
opportunities in which they are interested” and
“requir[e] that U.S. workers in corresponding
employment receive the same wages and benefits as
the H-2B workers.” See id. at 24043. The regulations
also provide additional protections to H-2B workers
(such as guaranteed minimum hours and
reimbursements for visa and transportation
expenses) and to whistleblowers. See id. The 2015
Wage Rule “set[s] the methodology by which DOL
calculates the prevailing wages to be paid to H-2B
workers and U.S. workers recruited in connection
with applications for temporary labor certification.”
See id. at 24146. In addition, plaintiffs challenge
certain DHS regulations, “collectively referred to and
identified
...
as
DHS’s
Labor-Certification
Regulations.” ECF 44, ¶ 2; see also id.¶ 34; 8 C.F.R. §
214.2(h)(6). The Labor-Certification Regulations,
issued in 2008, “govern DHS’s administration of the
65a

H-2B program generally, including DOL’s role in the
program.” ECF 69 at 11.
According to plaintiffs, the regulatory scheme is
“unworkable” and causes unnecessary delay in visa
processing. ECF 44, ¶ 8. They assert that “H-2B
workers are now arriving weeks, and often months,
after employers’ dates of need,” which has harmed
the businesses of plaintiffs and/or their members. Id.
. Defendants observe that plaintiffs’ labor
certifications and H-2B petitions have all been
granted. ECF 102-1 at 25; see also ECF 44, ¶¶ 15,
17.11 However, according to plaintiffs, this
“regulatory
scheme
imposes
more
than
$1,000,000,000 in compliance costs.” ECF 92-1 at 15.
Therefore, plaintiffs ask the Court to enter an Order
“enjoining the Defendants nationwide from
implementing the unlawful” 2015 Program Rules,
the 2015 Wage Rule, and the 2008 LaborCertification Regulations. ECF 44, ¶ 115.
II. Standard of Review
The APA provides for judicial review of a final
agency action. See *711 Ergon-W. Virginia, Inc. v.
United States Envtl. Prot. Agency, 896 F.3d 600, 609
(4th Cir. 2018); Roland v. United States Citizenship
& Immigration Servs., 850 F.3d 625, 629 n.3 (4th
Cir. 2017); Friends of Back Bay v. U.S. Army Corps
of Eng’rs, 681 F.3d 581, 586 (4th Cir. 2012); Lee v.
U.S. Citizenship & Immigration Servs., 592 F.3d 612,
619 (4th Cir. 2010); Ohio Valley Envtl. Coal v.
Aracoma Coal Co., 556 F.3d 177, 192 (4th Cir. 2009).
An agency’s regulations must be set aside and held
unlawful when they are “arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance
66a

with law,” 5 U.S.C. § 706(2)(A); when they are
“contrary to constitutional right, power, privilege, or
immunity,” id. § 706(2)(B); or when they are “in
excess of statutory jurisdiction, authority, or
limitations, or short of statutory right.” Id. §
706(2)(C).
As noted, the Government submitted the
Administrative Record. ECF 46; ECF 87; ECF 129.
Generally, “claims brought under the APA are
adjudicated without a trial or discovery, on the basis
of an existing administrative record....” Audubon
Naturalist Soc’y of the Cent. Atl. States, Inc. v. U.S.
Dep’t of Transp., 524 F.Supp.2d 642, 660 (D. Md.
2007) (citing Citizens for the Scenic Severn River
Bridge, Inc. v. Skinner, 802 F.Supp. 1325, 1332 (D.
Md. 1991), aff’d, 972 F.2d 338 (Table) (4th Cir. July
29, 1992) ). In this context, “review of the
administrative record is primarily a legal
question....” Skinner, 802 F.Supp. at 1332.
“The APA provides that a reviewing court is bound to
‘hold unlawful and set aside agency action’ for
certain specified reasons, including whenever the
challenged act is ‘arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law.’ ”
Friends of Back Bay, 681 F.3d at 586-87 (quoting 5
U.S.C. § 706(2)(A) ); see United States v. Bean, 537
U.S. 71, 77, 123 S.Ct. 584, 154 L.Ed.2d 483 (2002);
Camp v. Pitts, 411 U.S. 138, 142, 93 S.Ct. 1241, 36
L.Ed.2d 106 (1973) (per curiam); N. Carolina
Growers’ Ass’n, Inc. v. United Farm Workers, 702
F.3d 755, 763 (4th Cir. 2012) (quoting 5 U.S.C. §
706(2) ). Review under the APA is highly deferential,
however, and the agency action enjoys a presumption
67a

of validity and regularity. Citizens to Preserve
Overton Park, Inc. v. Volpe, 401 U.S. 402, 415, 91
S.Ct. 814, 28 L.Ed.2d 136 (1971), abrogated on other
grounds by Califano v. Sanders, 430 U.S. 99, 97 S.Ct.
980, 51 L.Ed.2d 192 (1977); Ohio Valley Envtl. Coal.
v. Aracoma Coal Co., 556 F.3d 177, 192 (4th Cir.
2009) (citing Natural Res. Def. Council, Inc. v. EPA,
16 F.3d 1395, 1400 (4th Cir. 1993) ). The party
challenging an agency decision has the burden to
demonstrate that the agency action was arbitrary or
capricious. Sierra Club v. Marita, 46 F.3d 606, 619
(7th Cir. 1995).
Notably, “[t]he scope of review under the ‘arbitrary
and capricious’ standard is narrow and a court is not
to substitute its judgment for that of the agency....”
Motor Vehicle Mfrs. Ass’n of the United States v.
State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43, 103
S.Ct. 2856, 77 L.Ed.2d 443 (1983). In assessing an
agency decision, “the reviewing court ‘must consider
whether the decision was based on a consideration of
the relevant factors and whether there has been a
clear error of judgment.’ ” Marsh v. Oregon Natural
Res. Council, 490 U.S. 360, 378, 109 S.Ct. 1851, 104
L.Ed.2d 377 (1989) (quoting Overton Park, 401 U.S.
at 416, 91 S.Ct. 814).
“ ‘Deference is due where the agency has examined
the relevant data and provided an explanation of its
decision that includes ‘a rational connection between
the facts found and the choice made.’ ’ ” *712 Ohio
Valley Envtl. Coal., Inc. v. United States Army Corps
of Engineers, 828 F.3d 316, 321 (4th Cir. 2016)
(citation omitted); see Trinity Am. Corp. v. U.S. EPA,
150 F.3d 389, 395 (4th Cir. 1998); Clevepak Corp. v.
68a

U.S. EPA, 708 F.2d 137, 141 (4th Cir. 1983).
However, and of import here, “[t]he ‘arbitrary and
capricious’ standard is not meant to reduce judicial
review to a ‘rubber-stamp’ of agency action.” Ohio
Valley Envtl. Coal, 556 F.3d at 192 (quoting Ethyl
Corp. v. Envtl. Prot. Agency, 541 F.2d 1, 34 (D.C. Cir.
1976)); see also Ergon-W. Virginia, Inc., 896 F.3d at
609.
III. Discussion
A. 2008 Labor-Certification Regulations
As noted, plaintiffs challenge the 2015 Wage Rules,
the 2015 Program Rules, the 2015 Enforcement
Rules, and the 2008 Labor-Certification Regulations.
I shall discuss the challenges to each of these rules in
turn, along with defendants’ defenses to them.
In 2008, DHS promulgated a regulation governing
the H-2B program. See 73 Fed. Reg. 78104 (Dec. 19,
2008) (codified at 8 C.F.R. §§ 204, 214, 215).
Although other regulations concerning labor
certifications had been in place for many years, the
2008 regulation included a provision stating that an
employer “may not file an H-2B petition unless the
United States petitioner has applied for a labor
certification with the Secretary of Labor ... and has
obtained
a
favorable
labor
certification
determination.” 8 C.F.R. § 214.2(h)(6)(iii)(C). Section
214.2(h)(6)(iv)(A) states: “An H-2B petition for
temporary employment in the United States ... shall
be accompanied by an approved temporary labor
certification from the Secretary of Labor stating that
qualified workers in the United States are not
available and that the alien’s employment will not
69a

adversely affect wages and working conditions of
similarly employed United States workers.”
Plaintiffs contest, inter alia, the requirement for an
employer to first obtain “a favorable labor
certification determination” from DOL before the
employer may file an H-2B petition. See, e.g., ECF
44, ¶¶ 34-39.
1. Statute of Limitations
About ten years ago, DHS promulgated the
regulation found in 73 Fed. Reg. 78104, published at
8 C.F.R. § 214.2. Therefore, I shall first address
whether this portion of plaintiffs’ claim is timebarred.
“[E]very civil action commenced against the United
States shall be barred unless the complaint is filed
within six years after the right of action first
accrues.” 28 U.S.C. § 2401(a). In general, when
“plaintiffs bring a facial challenge to an agency
ruling ... ‘the limitations period begins to run when
the agency publishes the regulation.’ ” Hire Order
Ltd. v. Marianos, 698 F.3d 168, 170 (4th Cir. 2012)
(quoting Dunn–McCampbell Royalty Interest, Inc. v.
Nat’l Park Serv., 112 F.3d 1283, 1287 (5th Cir. 1997)
). But, this general statute of limitations “ ‘does not
foreclose subsequent examination of a rule where
properly brought before this court for review of
further [agency] action applying it.’ ” N.L.R.B. Union
v. Fed. Labor Relations Auth., 834 F.2d 191, 195-96
(D.C. Cir. 1987) (quoting Functional Music, Inc. v.
F.C.C., 274 F.2d 543, 546 (D.C. Cir. 1958) ).
Despite plaintiffs’ vague protests to the contrary, this
70a

suit clearly represents a facial, rather than an asapplied, challenge. See ECF 44, ¶¶ 94, 95, 96
(challenging “Defendants’ issuance of the 2015
Program Rules, the 2015 Wage Rule, and DHS’s
Labor-Certification Regulations” (emphasis added) );
see also Hire Order, 698 F.3d at 170. Because this is
a facial challenge, the statute of limitations
presumptively began to run in 2008. *713 Hire
Order, 698 F.3d at 170; ECF 102-1 at 24. If that is
the case, plaintiffs’ 2016 lawsuit—filed eight years
after DHS promulgated the 2008 regulation—is
untimely.
In an attempt to forestall this conclusion, plaintiffs
invoke the “reopening doctrine,” ECF 111-1 at 50, a
theory derived from D.C. Circuit case law. According
to this doctrine, “where an agency conducts a
rulemaking or adopts a policy on an issue at one
time, and then in a later rulemaking restates the
policy or otherwise addresses the issue again without
altering the original decision,” the six-year statute of
limitations begins anew when the agency “reopens”
the original decision. Nat’l Ass’n of Reversionary
Prop. Owners v. Surface Transp. Bd. (“NARPO”), 158
F.3d 135, 141 (D.C. Cir. 1998) (quoting United
Transp. Union Illinois Legislative Bd. v. STB, 132
F.3d 71, 75-76 (D.C. Cir. 1998) ). Under this doctrine,
“ ‘when the agency ... by some new promulgation
creates the opportunity for renewed comment and
objection, affected parties may seek judicial review,
even when the agency decides not to amend the longstanding rule at issue.’ ” P & V Enters v. U.S. Army
Corps of Eng’rs, 516 F.3d 1021, 1023-24 (D.C. Cir.
2008) (quoting Gen. Motors Corp. v. EPA, 363 F.3d
442, 449-50 (D.C. Cir. 2004) ).
71a

To determine whether an agency has “reopened” its
earlier rulemaking and thus restarted the statute of
limitations, a court “must look to the entire context
of the rulemaking including all relevant proposals
and reactions of the agency.” NARPO, 158 F.3d at
141 (quoting Public Citizen v. NRC, 901 F.2d 147,
150 (D.C. Cir. 1990) ). This includes, inter alia, both
explicit and implicit evidence, as well as the
language of the agency’s notice of proposed
rulemaking and the “agency’s response to comments
filed by parties during a rulemaking.” Id. at 142-46.
Although
either
the
actual
or
implicit
reconsideration of an existing regulation can suffice,
the reopening doctrine only applies where this
evidence “demonstrates that the agency ‘ha[s]
undertaken a serious, substantive reconsideration of
the [existing] rule.’ ” P & V Enters., 516 F.3d at 1024
(emphasis added) (quoting Nat’l Mining Ass’n v. U.S.
Dep’t of Interior, 70 F.3d 1345, 1352 (D.C. Cir. 1995)
). An agency may also constructively reopen an
existing regulation “if the revision of accompanying
regulations ‘significantly alters the stakes of judicial
review,’ as the result of a change that ‘could have not
been reasonably anticipated.’ ” Sierra Club v. E.P.A.,
551 F.3d 1019, 1025 (D.C. Cir. 2008) (quoting
Kennecott Utah Copper Corp. v. Dep’t of Interior, 88
F.3d 1191, 1227 (D.C. Cir. 1996) and Envtl. Def. v.
EPA, 467 F.3d 1329, 1334 (D.C. Cir. 2006) ).
Even assuming, arguendo, that the Fourth Circuit
would recognize the reopening doctrine, it does not
apply here. See Indep. Cmty. Bankers of Am. v. Nat’l
Credit Union Admin., 1:16-1141-JCC-TCB, 2017 WL
346136, at *4 (E.D. Va. Jan. 24, 2017) (“The Court
72a

can find no Supreme Court or Fourth Circuit
precedent recognizing the reopening doctrine. As
such, the doctrine’s status in this Circuit is
unsettled.”). None of the 2015 Rules reopened DHS’s
2008 decision to require an employer to first obtain
“a favorable labor certification determination” from
DOL before applying for an H-2B visa. See 8 C.F.R.
§§ 214.2(h)(6)(iii)(C), (iv)(A).
First, although the 2015 Interim Final Rule
“establishes the process by which employers obtain a
temporary labor certification from DOL for use in
petitioning DHS to employ a nonimmigrant worker
in H-2B status,” 80 Fed. Reg. at 24042, the 2015
Interim Final Rule does not reconsider DHS’s initial
decision to require such certifications. The Executive
Summary of *714 the 2015 Interim Final Rule itself
makes this clear, 80 Fed. Reg. at 24042-43 (emphasis
added):
Under DHS regulations, an H-2B petition for
temporary employment must be accompanied by an
approved temporary labor certification from DOL,
which serves as DOL’s advice to DHS regarding
whether a qualified U.S. worker is available to fill
the petitioning H-2B employer’s job opportunity
and whether a foreign worker’s employment in the
job opportunity will adversely affect the wages or
working conditions of similarly employed U.S.
workers. See 8 CFR 214.2(h)(6)(iii)(A) and (D).
This interim final rule, which is virtually identical
to the 2012 final rule that DOL developed following
public notice and comment, improves DOL’s ability
to determine whether it is appropriate to grant a
73a

temporary employment certification.
***
The Departments believe that these procedures
and additional worker protections will lead to an
improved temporary employment certification
process.
In other words, although the 2015 Interim Final
Rule reiterates the temporary labor certification
requirement, as set forth in the 2008 LaborCertification Regulations, the 2015 Interim Final
Rule’s clear objective is to establish “the process by
which employers obtain a temporary labor
certification from DOL for use in petitioning DHS to
employ a nonimmigrant worker in H-2B status.” Id.
at 24042; see also id. at 24045 (“DHS has therefore
made DOL’s approval of a temporary labor
certification a condition precedent to the acceptance
of the H-2B petition.... This interim final rule
establishes the process by which employers obtain a
temporary labor certification and the protections
that apply to H-2B workers and corresponding
workers.”).
In arguing to the contrary, plaintiffs point to “the
second line of the 2015 IFR,” which says that the
rules relate to “ ‘8 C.F.R. Part 214.’ ” See 80 Fed. Reg.
at 24042; ECF 111-1 at 51. According to plaintiffs,
“This line means that the 2008 DHS Rule was
‘directly affected’ by the 2015 IFR.” ECF 111-1 at 51.
This misconstrues the requirement and purpose of
the reopening doctrine, which only applies when an
agency
engages
in
“serious,
substantive
74a

reconsideration” of an existing rule. P & V Enters.,
516 F.3d at 1024 (emphasis added) (quoting Nat’l
Mining Ass’n, 70 F.3d at 1352). The mere citation to
“8 C.F.R. Part 214” cannot suffice to restart the clock
for every subpart of a 186-page long regulatory
provision that includes 16 separate subsections. See
also Am. Iron & Steel Inst. v. U.S. E.P.A., 886 F.2d
390, 398 (D.C. Cir. 1989).
Second, plaintiffs argue that in the 2015 Interim
Final Rule, DHS “affirmatively requested public
comment on all issues.” ECF 111-1 at 51. To be sure,
the 2015 IFR states that it “seek[s] public input on
every aspect of this interim final rule.” 80 Fed. Reg.
at 24050. However, just as the mere invocation of a
subsection of the C.F.R. does not trigger the
reopening doctrine, neither does the agency’s
decision to welcome general comments on “every
aspect” of an interim final rule. See Indep. Cmty.
Bankers of Am., 2017 WL 346136, at *4 (“Merely
welcoming general comments beyond the scope of a
proposed rulemaking does not affect a ‘regulatory
reset.’ ”); see also NARPO, 158 F.3d at 142 (“When an
agency invites debate on some aspects of a broad
subject ... it does not automatically reopen all related
aspects including those already decided.”).
Finally, plaintiffs contend that DHS “constructively
reopened” the 2008 regulation *715 by changing “
‘the regulatory context in such a way that could not
have been reasonably anticipated by the regulated
entity and is onerous to its interests.’ ” ECF 111-1 at
52 (quoting Envtl. Def. v. E.P.A467 F.3d at 1334).
Plaintiffs suggest that this is so because “regulated
employers could not have reasonably anticipated
75a

that a court would vacate the 2008 DOL Rule and
DHS would respond by promulgating its own, farmore onerous replacement regulations.” Id. This falls
short of the type of “sea change” required to trigger a
“constructive reopening.” See Nat. Res. Def. Council
v. E.P.A., 571 F.3d 1245, 1266 (D.C. Cir. 2009).
Instead, as in Natural Resources Defense Council,
“The basic regulatory scheme remains unchanged.”
Id.
As a result, plaintiffs’ challenge to the 2008 LaborCertification Regulations is barred by the six-year
statute of limitations.
2. Scope of 8 U.S.C. § 1184
Because plaintiffs’ challenge to the 2008 LaborCertification Regulations is time-barred, I need not
consider whether the regulations are within the
scope of the relevant statutes. However, even if
plaintiffs’ claims are not time-barred, the 2008
Labor-Certification Regulations would survive.
Defendants maintain that 8 U.S.C. § 1184(c)(1),
which authorizes DHS to determine whether to
import an H-2B worker “after consultation with
appropriate agencies of the Government,” supports
DHS’s policy of conditioning approval of H-2B visa
petitions on a favorable labor certification from DOL.
ECF 102-1 at 29. But, plaintiffs charge that by
establishing
this
requirement,
without
an
opportunity for an employer to appeal an adverse
decision to DHS, DHS has abdicated its statutory
responsibility to adjudicate all H-2 visa petitions,
and has impermissibly redelegated its authority to
another agency. See ECF 92-1 at 48-49.
76a

Plaintiffs rely, inter alia, on G.H. Daniels III &
Assocs., Inc. v. Perez, 626 F. App’x 205 (10th Cir.
2015), as amended (Nov. 5, 2015), an unpublished
Tenth Circuit decision that found an impermissible
delegation of DHS’s authority in the H-2B visa
context. The Daniels Court looked to the definition of
“consultation” and noted that it meant, inter alia, “to
seek advice.” Id. at 210-11. Based on this definition,
the court stated that “advice is only that; it can, and
sometimes should, be prudently ignored.” Id. at 211.
But, the court reasoned that DHS had “no ability to
ignore DOL’s advice if a certification has been
denied[, and thus] DOL ha[d] effectively supplanted
DHS as final decision-maker as to whether to allow
for the admission of some H-2B workers.” Id.
(alterations added). The Tenth Circuit concluded,
“That is a subdelegation.” Id. And, because the
Government had not presented any statute allowing
such a delegation, the court found that it was
improper. Id. at 212.12 As a result, the Daniels Court
reversed the district court’s dismissal of the
plaintiff’s challenge to the 2008 Labor-Certification
Regulations. Id. at 215. Of import here, however, the
regulations were never vacated or enjoined by the
district court.
The Tenth Circuit’s decision is contrary to the Third
Circuit’s ruling in Louisiana Forestry Ass’n Inc. v.
Sec’y U.S. Dep’t of Labor, 745 F.3d 653 (3d Cir.
2014). The Third Circuit, in reviewing DOL’s 2011
Wage Rule, discussed and approved of the
Government’s entire regulatory scheme. *716 See id.
at 673-76. Applying Chevron deference, see Chevron,
U.S.A., Inc. v. Nat. Res. Def. Council, Inc., 467 U.S.
77a

837, 845, 104 S.Ct. 2778, 81 L.Ed.2d 694 (1984), the
Third Circuit determined that DHS had reasonably
interpreted the consultation provision of 8 U.S.C. §
1184(c)(1) to allow it to “condition[ ] its own granting
of an H-2B visa petition on the DOL’s grant of a
temporary labor certification.” 745 F.3d at 670, 673
(emphasis in original) (alteration added).
In the view of the Third Circuit, DHS “did not
impermissibly subdelegate all of its authority in this
area.” Id. The court reasoned that a rule requiring H2B employers “to first obtain a temporary labor
certification from the DOL on the questions of
whether there are United States workers capable of
performing the job in question and the impact of the
aliens’ employment on United States workers, and
giving the DOL discretion to issue a limited set of
rules governing the certification process,” was a
permissible exercise of DHS’s “broad authority” to
determine its obligations under the statute. Id. at
672-73.
In support, the Third Circuit cited U.S. Telecom
Ass’n v. F.C.C., 359 F.3d 554, 567 (D.C. Cir. 2004),
for the proposition that “a federal agency entrusted
with broad discretion to permit or forbid certain
activities may condition its grant of permission on
the decision of another entity ... so long as there is a
reasonable connection between the outside entity’s
decision and the federal agency’s determination.”
On this question, I am persuaded by the Third
Circuit’s analysis. As that court noted, 745 F.3d at
673: “The DOL has been involved in the
administration of the nation’s immigration laws
78a

since its inception in 1913, and for the past six
decades, has provided temporary labor certifications
in some form to the government agency charged with
administering the nation’s immigration laws
concerning admission of temporary non-agricultural
workers.” Given DOL’s “institutional expertise in
labor and employment matters, as well as [DOL’s]
history of rulemaking authority in the context of the
H-2B program,” the Third Circuit found a
“reasonable connection” between DOL’s labor
certification decisions and DHS’s H-2B petition
decisions. Louisiana Forestry, 745 F.3d at 673.
Furthermore, the court said, id. at 672: “Although
the DHS’s decision to grant an H-2B petition
depends, in part, on whether or not the DOL issues a
temporary labor certification to the petitioneremployer, it is the DHS—not the DOL—that must
determine whether the other criteria for an H-2B
visa have been satisfied.” Therefore, the court
concluded that 8 C.F.R. § 214.2 “does not effect a
delegation of authority, but instead provides for a
type of ‘legitimate outside party input into agency
decision-making processes.’ ” Id. (quoting U.S.
Telecom Ass’n, 359 F.3d at 566).
This conclusion is further bolstered by 8 U.S.C. §
1101(a)(15)(H)(ii)(b), which provides, as part of the
definition of an H-2B worker, that “unemployed
persons capable of performing [the H-2B worker’s]
service or labor cannot be found in this country....” A
plain reading of this language lends credence to
defendants’ use of the DOL’s labor certification as a
condition precedent. If unemployed Americans are
available for the job, then by the terms of the statute
no H-2B workers can be imported.
79a

Thus, in my view, the 2008 Labor-Certification
Regulations follow from a reasonable interpretation
of DHS’s statutory authority.
B. 2015 Rules
Plaintiffs challenge the 2015 Program Rules, the
2015 Wage Rule, and the 2015 Enforcement Rules on
several grounds. As *717 an initial matter, plaintiffs
assert that defendants failed to identify the legal
authority for their joint rulemaking. See ECF 92-1 at
28-29. Their primary argument, however, is that
DHS has no power to confer rulemaking authority on
DOL. Moreover, plaintiffs assert that DHS and DOL
cannot “jointly issue” rules, because rulemaking
authority was delegated by Congress to DHS alone,
and Congress did not authorize the redelegation of
authority to DOL. See id. at 31-44.
1. Identification of Authority
A notice of proposed rulemaking must contain a
“reference to the legal authority under which the rule
is proposed.” 5 U.S.C. § 553(b)(2). And, when ready to
finally publish, the relevant agency “shall
incorporate in the rules adopted a concise general
statement of their basis and purpose.” Id. § 553(c).
However, as defendants correctly note, “this
requirement is not onerous, and requires only
sufficient notice of the legal authority exercised to
apprise the public of the source of the authority and
permit the public to comment on it.” ECF 102-1 at 46
(citing Louisiana Forestry, 745 F.3d at 676-77; Nat’l
Tour Brokers Ass’n v. United States, 591 F.2d 896,
900 (D.C. Cir. 1978) ).
80a

In my view, DHS and DOL adequately cited the legal
basis for their authority to issue the 2015 Rules. The
2015 Rules cite, inter alia, 8 U.S.C. §§ 1101, 1103,
and 1184 as the basis for DHS and DOL’s
rulemaking authority, as well as 8 C.F.R. § 214.2.
See 80 Fed. Reg. at 24108 (2015 Program Rules); id.
at 24131 (2015 Enforcement Rules); id. at 24184
(2015 Wage Rule). This is enough to stave off a
challenge on the basis of inadequate citation of legal
authority.
2. DOL’s Rulemaking Authority
Whether DOL may lawfully issue legislative rules
concerning the Program is a close question. Plaintiffs
correctly observe that “only Congress may grant
rulemaking, adjudicative, or enforcement authority
to an agency.” ECF 92-1 at 30; see Bowen v.
Georgetown Univ. Hosp., 488 U.S. 204, 208, 109 S.Ct.
468, 102 L.Ed.2d 493 (1988) (“It is axiomatic that an
administrative agency’s power to promulgate
legislative regulations is limited to the authority
delegated by Congress.”). The Government has not
identified any statute that explicitly gives DOL such
authority. Instead, it offers several arguments for
why
explicit
congressional
authorization
is
unnecessary. Most of these arguments are
unpersuasive, and the Government’s circular retreat
from one to the next in both briefing and argument
reveals the fragility of its position.
However, for several reasons, I am ultimately
convinced that the Program’s current regulatory
scheme is consistent with Congress’s intent.

81a

a.
The Government relies heavily on the Third Circuit’s
decision in Louisiana Forestry, 745 F.3d 653,
discussed earlier. See, e.g., ECF 102-1 at 34. The
district court’s opinion in that case, which the Third
Circuit affirmed, is also informative. See Louisiana
Forestry Ass’n, Inc. v. Solis, 889 F.Supp.2d 711 (E.D.
Pa. 2012). Judge Legrome Davis’s artful decision
concerning the 2011 Wage Rule frames DOL’s long
history with the Program.
The district judge recounted, as discussed earlier,
that “the modern H-2B visa program was created in
1986 through the enactment” of the IRCA, “which
bifurcated the existing H–2 visa program into
agricultural [H-2A] and non-agricultural [H-2B]
components. At the time of IRCA’s enactment, the
DOL regulations governing the labor certification
process for non-agricultural, unskilled guest workers
already *718 had been in place for many years.” Id.
at 728. In fact, DOL had been issuing legislative
rules, strikingly similar to the 2015 Rules at issue
here, as far back as 1968. See 33 Fed. Reg. 7570-71.
The 1968 rules, then published at 20 C.F.R. § 621,
concerned labor certifications for employers seeking
temporary non-agricultural workers. Notably, the
1968 rules cite the very same authority that DOL
cited in 2015: 8 U.S.C. § 1101, 8 U.S.C. § 1184, and 8
C.F.R. § 214.2. See Certification of Temporary
Foreign Labor for Industries Other Than Agriculture
or Logging, 33 Fed. Reg. 7570, 7571 (May 22, 1968)
(establishing DOL labor certifications). Moreover,
the statutory language of 8 U.S.C. §§ 1101 and 1184
82a

remains “materially identical” to the versions from
the 1960s. See Louisiana Forestry, 889 F.Supp.2d at
728. Those DOL rules stood intact for decades,
having no more statutory basis than the 2015 Rules
have.
The district court in Louisiana Forestry also
emphasized that Congress revisited this part of the
U.S. Code when it passed the IRCA, splitting the H-2
program into agricultural (H-2A) and nonagricultural (H-2B) components. The IRCA altered 8
U.S.C. § 1101(a)(15)(H)(ii)(a) (the agricultural
component) to specifically refer to the Secretary of
Labor. But, the law left § 1101(a)(15)(H)(ii)(b) (the
Program) unchanged.
Plaintiffs argue that the doctrine of expressio unius
weighs against DOL’s authority, because Congress
“imposed a labor-certification requirement” for the
H-2A program, but did not mention DOL or labor
certifications under the authorizing statute for the
H-2B program. See ECF 111-1 at 20. This is a
plausible interpretation, but it is not the only
interpretation. It may be, as counsel for amici
suggested during oral argument, that Congress
sought to direct the administration of the H-2A
program by specifically designating DOL and the
Department of Agriculture as the only “appropriate
agencies of Government” with which to consult. See
ECF 126 at 48; 8 U.S.C. § 1184(c)(1). By contrast,
DHS may consult with any appropriate agencies for
purposes of the H-2B program. See 8 U.S.C. §
1184(c)(1).
Of course, for more than 50 years, DHS (or its
83a

predecessor) has consulted with DOL. And,
throughout that period, Congress has never gainsaid
that decision or DOL’s rulemaking in the context of
the Program. As Judge Davis observed in Louisiana
Forestry, 889 F.Supp.2d at 729: “In enacting IRCA,
Congress chose to leave intact the statutory text
governing nonagricultural workers, and, by
implication, the preexisting regulatory scheme.”
Certainly, Congress was aware that DOL was
involved in rulemaking. “Congress is presumed to be
aware of an administrative or judicial interpretation
of a statute and adopt that interpretation when it reenacts a statute without change.” Lorillard v. Pons,
434 U.S. 575, 580-81, 98 S.Ct. 866, 55 L.Ed.2d 40
(1978). And, only four years before IRCA’s passage—
before the agricultural and nonagricultural
components were divided—the Supreme Court drew
attention to DOL’s H-2 program rulemaking in the
case of Alfred L. Snapp & Son, Inc. v. Puerto Rico,
458 U.S. 592, 595-96, 102 S.Ct. 3260, 73 L.Ed.2d 995
(1982). In that case, the Supreme Court noted that
“the
Secretary
of
Labor
[makes]
initial
determinations” of labor market availability, and
that employers who wish to import foreign workers
must follow DOL’s rules to obtain a labor
certification. Id.
Accordingly, Judge Davis concluded that, “at the
time of IRCA’s enactment, Congress was
presumptively aware of the Court’s interpretation of
*719 8 U.S.C. § 1184(c) as authorizing DOL
regulations governing labor certifications.” Louisiana
Forestry, 889 F.Supp.2d at 729 (citing Lorillard, 434
U.S. at 580-81, 98 S.Ct. 866). Further, Judge Davis
84a

noted that parts of IRCA’s legislative history made
explicit reference to DOL’s rules. Louisiana Forestry,
889 F.Supp.2d at 729 (citing H.R. Rep. No. 99-682,
pt. 1, at 80 (1986), reprinted in 1986 U.S.C.C.A.N.
5649, 5684).
“It is well established that when Congress revisits a
statute giving rise to a longstanding administrative
interpretation without pertinent change, the
congressional failure to revise or repeal the agency’s
interpretation is persuasive evidence that the
interpretation is the one intended by Congress.”
Commodity Futures Trading Comm’n v. Schor, 478
U.S. 833, 846, 106 S.Ct. 3245, 92 L.Ed.2d 675 (1986)
(internal quotation marks and citations omitted).
“Since IRCA’s enactment, Congress has chosen, on
multiple occasions, to leave the DOL’s rulemaking in
the H-2B context intact,” Judge Davis wrote.
Louisiana Forestry, 889 F.Supp.2d at 729. “In 2005,
Congress amended the H-2B program to confer
enforcement powers on the DOL, without abrogating
the DOL’s legislative rulemaking authority.” Id.
Furthermore, as defendants assert, “Congress has
chosen (on multiple occasions) to endorse the
agencies’ joint action and/or DOL’s participation in
the H-2B program by funding the very program
Plaintiffs now challenge.” ECF 102-1 at 38 n.12
(citing Department of Labor Appropriations Act,
2016, Pub. L. No. 114-113, §§ 111-13, 129 Stat 2242,
2599 (2015)). Congress has referred to rules
promulgated by DOL pertaining to the Program in
both appropriations bills (see id.) and conference
reports for appropriations bills. See 157 Cong. Rec.
H7528 (Nov. 14, 2011) (directing the Secretary of
85a

Labor to “continue to apply the rule entitled ‘Labor
Certification
Process
and
Enforcement
for
Temporary Employment in Occupations Other Than
Agriculture or Registered Nursing in the United
States (H-2B Workers), and Other Technical
Changes’ published by the Department of Labor on
December 19, 2008 (73 Fed. Reg. 78020 et seq.).”).
Plaintiffs take issue with this argument, calling it a
“post hoc rationalization,” and noting again that
Congress has never extended explicit rulemaking
authority to DOL in this context. See ECF 111-1 at
43-44. They posit, id. at 44: “Acquiescence (i.e.,
congressional silence) cannot possibly qualify as a
‘clear’ or ‘affirmative’ or ‘express’ statement of
rulemaking authority....” See also Bayou, 713 F.3d at
1085 (“Furthermore, if congressional silence is a
sufficient basis upon which an agency may build a
rulemaking authority, the relationship between the
executive and legislative branches would undergo a
fundamental change and ‘agencies would enjoy
virtually limitless hegemony....’ ” (quoting Ethyl
Corp. v. EPA, 51 F.3d 1053, 1060 (D.C. Cir. 1995) ) ).
But, in my view, and in light of the principles
articulated by the Supreme Court, Congress has not
been silent. In Louisiana Forestry, 889 F.Supp.2d at
728, Judge Davis concluded that “the history of the
H-2B program demonstrates Congress’s expectation
that the DOL would engage in legislative
rulemaking.” I concur. DOL is not engaged in some
sudden power-grab. DOL has not simply been
involved in the H-2B program; it has actually been
issuing legislative rules since the 1960s. Moreover,
“DOL’s rulemaking in the H-2B program is also
86a

consistent with the objective of the statute creating
the H-2B visa program, which is to permit U.S.
employers to bring foreign workers to the United
States to perform temporary non-agricultural work,
provided that ‘unemployed *720 persons capable of
performing ... service or labor cannot be found in this
country.’ ” Id. at 730 (quoting 8 U.S.C. §
1101(a)(15)(H)(ii)(b) ).
b.
I shall briefly explain why I agree with the Third
Circuit, rather than the Eleventh Circuit, on the
question of DOL’s rulemaking authority.
In Bayou, 713 F.3d at 1084, the Eleventh Circuit,
upholding the district court’s preliminary injunction
of DOL’s 2012 Program Rules, rejected the
Government’s argument that DHS’s authority to
consult with DOL under 8 U.S.C. § 1184(c)(1)
enabled DOL to issue legislative rules. The Bayou
Court stated, id.:
We reject this interpretation of “consultation.”
Under this theory of consultation, any federal
employee with whom the Secretary of DHS deigns
to consult would then have the “authority to issue
legislative rules to structure [his] consultation with
DHS.” This is an absurd reading of the statute and
we decline to adopt it.
DHS was given overall responsibility, including
rulemaking authority, for the H-2B program. DOL
was designated a consultant. It cannot bootstrap
that supporting role into a co-equal one.
Indeed, if DHS decided tomorrow that, rather than
87a

collaborating with DOL in the same way it and its
predecessor have done for half a century, it preferred
to consult only with the Department of
Transportation—or, as the Bayou Court suggests,
with a particular employee at the Department of
Transportation—that new consultant’s ability to
issue rules would be gravely in doubt. For one,
plaintiffs could make a strong argument that the
choice to consult with the Department of
Transportation, which has no experience or expertise
in assessing labor markets, is an arbitrary and
capricious one. More important, that new consulting
relationship would bear none of the hallmarks of
Congressional acknowledgement and approval that
are present here.
I acknowledge the apparent rarity of finding
rulemaking authority without explicit statutory
authority. Plaintiffs assert in their supplemental
briefing, ECF 124 at 3-4: “The only individual that
has ever determined that DOL should be a
consultant is the Secretary of Homeland Security or
her predecessors.” But, that is not the whole story.
As discussed, Congress has repeatedly and over a
long period recognized DOL’s role, and the validity of
its rules, albeit not via statute. See Louisiana
Forestry, 745 F.3d at 674. Given this history, I am
not persuaded to take from DOL a power that it has
openly exercised for decades.
3. Defendants’ Other Arguments
a. The Delegation Provision of the INA
The Government maintains that 8 U.S.C. §
1103(a)(6) gives DHS the power to delegate any of its
88a

responsibilities, including rulemaking, to anyone in
the federal government, including the Secretary of
Labor. See ECF 102-1 at 25, 46 n.22; ECF 113 at 37.
The Government employs this argument largely to
defend DHS’s decision to seek temporary labor
certifications from DOL, but reprises it to justify
DOL’s role in the 2015 Rules. See id.
Although the scope of DHS’s authority to delegate
under § 1103(a)(6) is something of a gray area, I am
not entirely convinced by defendants’ argument. For
one, the statutory language does not seem to support
a delegation of this breadth. Section 1103(a)(6)
provides: “[The Secretary of Homeland Security] is
authorized to confer or impose upon any employee of
the United States ... any of the powers, *721
privileges, or duties conferred or imposed by this
chapter or regulations issued thereunder upon
officers or employees of the Service.” (Emphasis
added.)
The language presents two potential obstacles to
defendants’ interpretation. First, is rulemaking
authority one of the “powers, privileges, or duties”
conferred on “officers or employees of the Service?” It
would seem not. In the same statutory section,
Congress has instructed that the Secretary of
Homeland Security “shall establish such regulations
... as he deems necessary for carrying out his
authority....” 8 U.S.C. § 1103(a)(3). Although the
Secretary may subdelegate his responsibilities to
subordinate agencies and officers, the power to issue
regulations is conferred on him by Congress.
Second, given the general rule that only Congress
89a

can confer rulemaking authority, discussed supra,
there would appear to be a presumption against the
theory that the head of one agency can in fact assign
the power to issue binding rules to “any employee” of
another agency. Under the Government’s reading,
could the Secretary of Homeland Security confer
rulemaking authority on a health inspector for the
Department of Agriculture, or on a private in the
U.S. Army? Defendants have offered no limiting
principle for their interpretation. On this basis, it is
not clear that DHS validly delegated rulemaking
authority to DOL, such that DOL could issue the
2015 Rules.
My conclusion is qualified, however, in the context of
the 2015 Enforcement Rules. Section 1184(c)(14)(B)
provides: “The Secretary of Homeland Security may
delegate to the Secretary of Labor, with the
agreement of the Secretary of Labor, any of the
authority given to the Secretary of Homeland
Security under subparagraph (A)(i).” Subparagraph
(A)(i) authorizes the Secretary of Homeland Security
to impose administrative remedies on employers who
fail to meet any of the conditions of their H-2B
petitions. Id. § 1184(c)(14)(A).
Pursuant to this section, DHS formally redelegated a
portion of its enforcement authority to DOL in
January of 2009. See AR003764-65 (“Delegation of
Authority to the Department of Labor under Section
214(c)(14)(A) of the Immigration and Nationality
Act”). The Inter-Agency Agreement accompanying
the delegation letter provided that “DOL will issue
regulations as needed for the implementation and
operation
of
the
enforcement
authority....”
90a

AR003768. Plaintiffs concede that DHS may delegate
some of its enforcement power under the statute. See
ECF 92-1 at 50. However, they assert that the
delegable authority does not include the power to
make rules or regulations. Id. at 50-51.
Given that Congress clearly anticipated that DOL
would be delegated some enforcement authority, it
seems likely that Congress also anticipated that
DOL might need to engage in limited rulemaking to
support its enforcement efforts.
Plaintiffs do not discuss the 2015 Enforcement Rules
with any degree of particularity. See id. at 50-52.
DOL has been delegated the power to “impose
administrative remedies” on an employer, “in
addition to any other remedy authorized by law,”
once DOL “finds, after notice and an opportunity for
a hearing, a substantial failure to meet any of the
conditions of the petition to admit or otherwise
provide status to” an H-2B worker. See 8 U.S.C. §
1184(c)(14). To the extent that the 2015 Enforcement
Rules support that lawfully delegated power, those
rules are permissible.
b. Joint Rulemaking
Defendants also maintain that, were the Court to
conclude that DOL has no authority to issue rules,
this defect could be somehow remedied by the “joint
issuance” *722 of these rules with DHS. The
Government asserts that “there is nothing inherently
impermissible about joint rulemaking.” ECF 102-1 at
43. Indeed, there are many examples of joint
rulemaking. See Jody Freeman & Jim Rossi, Agency
Coordination in Shared Regulatory Space, 125 Harv.
91a

L. Rev. 1131, 1165-68 (2012) (collecting examples).
However, as plaintiffs point out, agencies tend to use
joint rulemaking “where Congress has allocated each
of them a role implementing one or a set of related
statutes.” Id. at 1167.
Defendants do not point to any examples of joint
rulemaking where only one agency has rulemaking
authority, and the other agency simply consents to
be subject to those rules. Rather, they contend that
“neither the INA nor the APA prohibit the agencies’
jointly issued rules, and plaintiffs cite no authority
that mandates that joint rules may only be issued
through express congressional authorization.” ECF
102-1.
To be sure, joint rulemaking is not prohibited, and it
may even be advisable where agencies have
overlapping jurisdiction. But, the Government has
presented no authority to suggest that joint
rulemaking
carries
any
independent
legal
significance.
Defendants assert that “the agencies’ joint
participation in 2015 eliminates any doubt that any
part of the rules was issued without ample
authority.” ECF 102-1 at 44. As support for this
proposition, defendants quote from their own rule:
“To ensure that there can be no question about the
authority for and validity of the regulations in this
area, DHS and DOL ... together are issuing this
interim final rule.” Id. (quoting 80 Fed. Reg. at
24045). But wishing does not make it so. The concern
with defendants’ prior rules issued by DOL has never
been skepticism that DOL and DHS shared the same
92a

goals; it was that DHS and DOL cannot lawfully
achieve those goals in this manner.
The Government also relies on the decisions of the
Northern District of Florida and the Eleventh Circuit
to support their theory that joint rulemaking solves
prior problems of authority. They note that “the
same district court that twice issued an injunction
against DOL’s unilaterally issued H-2B rules ... has
since concluded that the joint rules at issue in this
case are a valid exercise of DHS’s authority.” ECF
102-1 at 44 (citing Bayou III, 173 F. Supp. 3d at
1277, 1289-91). The district court in Bayou III,
considering the 2015 Rules, did not expressly
endorse defendants’ joint rulemaking, but it did
observe in a footnote that although “DOL did not
have unilateral authority to promulgate H-2B
regulations.... [t]he 2015 Program Rule and Wage
Rule were promulgated jointly by DHS and DOL in
response.” Bayou III, 173 F.Supp. 3d at 1277 n.2. The
court upheld the 2015 Rules. Id. at 1292. To the
extent that this ruling carries any weight, it supports
the Government. However, given that the Bayou III
Court declined to discuss the joint rulemaking in any
detail, the case’s persuasive value as to this point is
minimal.
On this question, the significance of the Eleventh
Circuit’s opinion in Bayou, 713 F.3d 1080, is thinner
still. Defendants observe that the court rejected the
proposition that DOL “is empowered to engage in
rulemaking, even without the DHS.” Id. at 1084.
They reason that the inverse must also be true:
“where DOL issues rules jointly with, rather than
‘without’ DHS, such jointly promulgated rules are
93a

unquestionably fully consistent with the INA and
APA.” ECF 102-1 at 45. I am unable to discern
anything in the Eleventh Circuit’s decision that
supports this inference.
In the alternative, defendants assert, in a footnote,
that “it is unnecessary for the Court to reach the
question of DOL’s rulemaking authority because the
joint rules are a proper exercise of DHS’s rulemaking
*723 authority. See 8 U.S.C. § 1103(a)(3). In such a
case, DOL’s signature would be surplusage; it would
not invalidate the rule.” ECF 102-1 at 44 n.20.
However, defendants do not adequately explain how
DHS alone could issue a rule that purports to govern
the Secretary of Labor and his subordinates, and is
published under DOL’s title of the Code of Federal
Regulations.
IV. Conclusion
Plaintiffs’ suit attacks the 2008 Labor-Certification
Regulations and the 2015 Rules. Their challenge to
the former is time-barred, and, even if it were not,
the regulations are consistent with the statute.
Furthermore, I am persuaded that the 2015 Rules
are consistent with Congress’s intent, given DOL’s
long history of rulemaking in the context of the
Program.
For the reasons stated above, I shall DENY
Plaintiffs’ Motion and I shall GRANT Defendants’
Motion. Judgment shall be entered in favor of the
Government.
A separate Order follows, consistent with this
94a

Memorandum Opinion.
Footnotes
1. According to plaintiffs, the 2015 Program Rules
consist of ETA’s administrative regulations and
WHD’s enforcement regulations. ECF 44, ¶ 40. The
2015 Enforcement Rules represent “WHD’s
enforcement portion of the 2015 Program Rules.” Id.
And, the 2015 Wage Rule “represent[s] more of
ETA’s administrative regulations.” Id.
2. As noted, the 2015 Enforcement Rules are alleged
to be part of the 2015 Program Rules, “except when
separately identified.” ECF 44, ¶ 40.
3. Government counsel provided Chambers with both
a compact disc and a paper copy of the record. See
ECF 46; ECF 87. However, counsel failed to file a
copy with the Clerk. Therefore, by Order of
September 7, 2018, the Court directed counsel to do
so. ECF 127. A copy of the administrative record was
docketed on September 12, 2018, in paper format.
See ECF 129.
4. Plaintiffs’ Motion was filed as ECF 91. However,
plaintiffs submitted a revised version of their
memorandum of law in support of their Motion. See
ECF 92-1.
5. Plaintiffs’ Reply was initially docketed at ECF
110. They provided a corrected submission, docketed
at ECF 111-1.
6. Amici were permitted to argue at the hearing.

95a

7. Plaintiffs refer to the Interim Final Rule as the
“2015 Program Rules” and the “2015 Enforcement
Rules.” They refer to the Final Rule as the “2015
Wage Rule.” ECF 44, ¶ 2. The Government refers to
the Interim Final Rule as the “2015 Interim Final
Rule” or “2015 IFR.” And, they refer to the Final
Rule as the “2015 Wage Final Rule.” ECF 69 at 11.
8. The statute, as initially written, assigned this duty
to the Attorney General. However, as noted, the
Homeland Security Act of 2002 transferred
enforcement of the immigration laws from the
Attorney General to the Secretary of DHS. See
Homeland Security Act of 2002, Pub. L. No. 107-296,
§ 402, 116 Stat. 2135, 2178 (2002).
9. As the Third Circuit observed, there is technically
no circuit split, as the “three-member panel in Bayou
opined only on whether the District Court abused its
discretion in finding that the employer-plaintiffs
were likely to succeed on the merits of their
challenge to the DOL’s rulemaking authority, not on
whether the DOL actually has that authority or not.”
Louisiana Forestry, 745 F.3d at 675 n.17. As such,
“[a] circuit split is thus not yet a foregone
conclusion.” Id.
10. As the agencies explain, the 2013 DHS/DOL
Wage IFR left almost all “of the wage methodology
and procedures from the 2008 [DOL] rule
untouched.” 2015 DHS/DOL Wage Rule, 80 Fed. Reg.
at 24151. CATA III vacated a portion of the 2013
IFR—20 C.F.R. 655.10(f)—and Perez “then vacated
the remainder of 20 C.F.R. 655.10.” Id.

96a

11. The Government has not seriously contested
plaintiffs’ standing to bring this suit at any point in
the litigation. Moreover, plaintiffs have adequately
alleged economic harm as a result of the regulations.
See Nat’l Credit Union Admin. v. First Nat’l Bank &
Trust Co., 522 U.S. 479, 488, 118 S.Ct. 927, 140
L.Ed.2d 1 (1998) (APA standing); Hunt v. Wash.
State Apple Advertising Comm’n, 432 U.S. 333, 342,
97 S.Ct. 2434, 53 L.Ed.2d 383 (1977) (associational
standing).
12. Notably, in that case, the court did not consider
the Government’s alternative argument, i.e., that
Congress had authorized delegation under 8 U.S.C. §
1103(a)(6). See ECF 102-1 at 38-43; Daniels, 626 F.
App’x at 212 n.10.

97a

Appendix D – Relevant Constitutional and
Statutory Provisions
U.S. Const. art. I, §1
Section 1.
All legislative powers herein granted shall be vested
in a Congress of the United States, which shall
consist of a Senate and House of Representatives.

98a

8 U.S.C. §§1101
§1101. Definitions
(a) As used in this chapter—
(1) The term "administrator" means the official
designated by the Secretary of State pursuant to
section 1104(b) of this title.
(2) The term "advocates" includes, but is not
limited to, advises, recommends, furthers by overt
act, and admits belief in.
(3) The term "alien" means any person not a
citizen or national of the United States.
(4) The term "application for admission" has
reference to the application for admission into the
United States and not to the application for the
issuance of an immigrant or nonimmigrant visa.
(5) The term "Attorney General" means the
Attorney General of the United States.
(6) The term "border crossing identification card"
means a document of identity bearing that
designation issued to an alien who is lawfully
admitted for permanent residence, or to an alien who
is a resident in foreign contiguous territory, by a
consular officer or an immigration officer for the
purpose of crossing over the borders between the
United States and foreign contiguous territory in
accordance with such conditions for its issuance and
use as may be prescribed by regulations. Such
regulations shall provide that (A) each such
document include a biometric identifier (such as the
fingerprint or handprint of the alien) that is machine
readable and (B) an alien presenting a border
crossing identification card is not permitted to cross
over the border into the United States unless the
99a

biometric identifier contained on the card matches
the appropriate biometric characteristic of the alien.
(7) The term "clerk of court" means a clerk of a
naturalization court.
(8) The terms "Commissioner" and "Deputy
Commissioner"
mean
the
Commissioner
of
Immigration and Naturalization and a Deputy
Commissioner of Immigration and Naturalization,
respectively.
(9) The term "consular officer" means any consular,
diplomatic, or other officer or employee of the United
States designated under regulations prescribed
under authority contained in this chapter, for the
purpose of issuing immigrant or nonimmigrant visas
or, when used in subchapter III, for the purpose of
adjudicating nationality.
(10) The term "crewman" means a person serving
in any capacity on board a vessel or aircraft.
(11) The term "diplomatic visa" means a
nonimmigrant visa bearing that title and issued to a
nonimmigrant in accordance with such regulations
as the Secretary of State may prescribe.
(12) The term "doctrine" includes, but is not
limited to, policies, practices, purposes, aims, or
procedures.
(13)(A) The terms "admission" and "admitted"
mean, with respect to an alien, the lawful entry of
the alien into the United States after inspection and
authorization by an immigration officer.
(B) An alien who is paroled under section
1182(d)(5) of this title or permitted to land
temporarily as an alien crewman shall not be
considered to have been admitted.
(C) An alien lawfully admitted for permanent
residence in the United States shall not be regarded
100a

as seeking an admission into the United States for
purposes of the immigration laws unless the alien—
(i) has abandoned or relinquished that status,
(ii) has been absent from the United States for a
continuous period in excess of 180 days,
(iii) has engaged in illegal activity after having
departed the United States,
(iv) has departed from the United States while
under legal process seeking removal of the alien
from the United States, including removal
proceedings under this chapter and extradition
proceedings,
(v) has committed an offense identified in section
1182(a)(2) of this title, unless since such offense
the alien has been granted relief under section
1182(h) or 1229b(a) of this title, or
(vi) is attempting to enter at a time or place
other than as designated by immigration officers
or has not been admitted to the United States after
inspection and authorization by an immigration
officer.
(14) The term "foreign state" includes outlying
possessions of a foreign state, but self-governing
dominions or territories under mandate or
trusteeship shall be regarded as separate foreign
states.
(15) The term "immigrant" means every alien
except an alien who is within one of the following
classes of nonimmigrant aliens—
(A)(i) an ambassador, public minister, or career
diplomatic or consular officer who has been
accredited by a foreign government, recognized de
jure by the United States and who is accepted by
101a

the President or by the Secretary of State, and the
members of the alien's immediate family;
(ii) upon a basis of reciprocity, other officials and
employees who have been accredited by a foreign
government recognized de jure by the United
States, who are accepted by the Secretary of State,
and the members of their immediate families; and
(iii) upon a basis of reciprocity, attendants,
servants, personal employees, and members of
their immediate families, of the officials and
employees who have a nonimmigrant status under
(i) and (ii) above;
(B) an alien (other than one coming for the
purpose of study or of performing skilled or
unskilled labor or as a representative of foreign
press, radio, film, or other foreign information
media coming to engage in such vocation) having a
residence in a foreign country which he has no
intention of abandoning and who is visiting the
United States temporarily for business or
temporarily for pleasure;
(C) an alien in immediate and continuous transit
through the United States, or an alien who
qualifies as a person entitled to pass in transit to
and from the United Nations Headquarters
District and foreign countries, under the provisions
of paragraphs (3), (4), and (5) of section 11 of the
Headquarters Agreement with the United Nations
(61 Stat. 758);
(D)(i) an alien crewman serving in good faith as
such in a capacity required for normal operation
and service on board a vessel, as defined in section
1288(a) of this title (other than a fishing vessel
having its home port or an operating base in the
United States), or aircraft, who intends to land
102a

temporarily and solely in pursuit of his calling as a
crewman and to depart from the United States
with the vessel or aircraft on which he arrived or
some other vessel or aircraft;
(ii) an alien crewman serving in good faith as
such in any capacity required for normal
operations and service aboard a fishing vessel
having its home port or an operating base in the
United States who intends to land temporarily in
Guam or the Commonwealth of the Northern
Mariana Islands and solely in pursuit of his calling
as a crewman and to depart from Guam or the
Commonwealth of the Northern Mariana Islands
with the vessel on which he arrived;
(E) an alien entitled to enter the United States
under and in pursuance of the provisions of a
treaty of commerce and navigation between the
United States and the foreign state of which he is
a national, and the spouse and children of any
such alien if accompanying or following to join
him; (i) solely to carry on substantial trade,
including trade in services or trade in technology,
principally between the United States and the
foreign state of which he is a national; (ii) solely to
develop and direct the operations of an enterprise
in which he has invested, or of an enterprise in
which he is actively in the process of investing, a
substantial amount of capital; or (iii) solely to
perform services in a specialty occupation in the
United States if the alien is a national of the
Commonwealth of Australia and with respect to
whom the Secretary of Labor determines and
certifies to the Secretary of Homeland Security and
the Secretary of State that the intending employer

103a

has filed with the Secretary of Labor an attestation
under section 1182(t)(1) of this title;
(F)(i) an alien having a residence in a foreign
country which he has no intention of abandoning,
who is a bona fide student qualified to pursue a
full course of study and who seeks to enter the
United States temporarily and solely for the
purpose of pursuing such a course of study
consistent with section 1184(l) 1 of this title at an
established
college,
university,
seminary,
conservatory, academic high school, elementary
school, or other academic institution or in an
accredited language training program in the
United States, particularly designated by him and
approved by the Attorney General after
consultation with the Secretary of Education,
which institution or place of study shall have
agreed to report to the Attorney General the
termination of attendance of each nonimmigrant
student, and if any such institution of learning or
place of study fails to make reports promptly the
approval shall be withdrawn, (ii) the alien spouse
and minor children of any alien described in clause
(i) if accompanying or following to join such an
alien, and (iii) an alien who is a national of Canada
or Mexico, who maintains actual residence and
place of abode in the country of nationality, who is
described in clause (i) except that the alien's
qualifications for and actual course of study may
be full or part-time, and who commutes to the
United States institution or place of study from
Canada or Mexico;
(G)(i)
a
designated
principal
resident
representative of a foreign government recognized
de jure by the United States, which foreign
104a

government is a member of an international
organization
entitled
to
enjoy
privileges,
exemptions, and immunities as an international
organization
under
the
International
Organizations Immunities Act (59 Stat. 669) [22
U.S.C. 288 et seq.], accredited resident members of
the staff of such representatives, and members of
his or their immediate family;
(ii) other accredited representatives of such a
foreign government to such international
organizations, and the members of their
immediate families;
(iii) an alien able to qualify under (i) or (ii) above
except for the fact that the government of which
such alien is an accredited representative is not
recognized de jure by the United States, or that
the government of which he is an accredited
representative is not a member of such
international organization; and the members of his
immediate family;
(iv) officers, or employees of such international
organizations, and the members of their
immediate families;
(v) attendants, servants, and personal employees
of any such representative, officer, or employee,
and the members of the immediate families of such
attendants, servants, and personal employees;
(H) an alien (i) [(a) Repealed. Pub. L. 106–95,
§2(c), Nov. 12, 1999, 113 Stat. 1316] (b) subject to
section 1182(j)(2) of this title, who is coming
temporarily to the United States to perform
services (other than services described in
subclause (a) during the period in which such
subclause applies and other than services
described in subclause (ii)(a) or in subparagraph
105a

(O) or (P)) in a specialty occupation described in
section 1184(i)(1) of this title or as a fashion model,
who meets the requirements for the occupation
specified in section 1184(i)(2) of this title or, in the
case of a fashion model, is of distinguished merit
and ability, and with respect to whom the
Secretary of Labor determines and certifies to the
Attorney General that the intending employer has
filed with the Secretary an application under
section 1182(n)(1) of this title, or (b1) who is
entitled to enter the United States under and in
pursuance of the provisions of an agreement listed
in section 1184(g)(8)(A) of this title, who is engaged
in a specialty occupation described in section
1184(i)(3) of this title, and with respect to whom
the Secretary of Labor determines and certifies to
the Secretary of Homeland Security and the
Secretary of State that the intending employer has
filed with the Secretary of Labor an attestation
under section 1182(t)(1) of this title, or (c) who is
coming temporarily to the United States to
perform services as a registered nurse, who meets
the qualifications described in section 1182(m)(1)
of this title, and with respect to whom the
Secretary of Labor determines and certifies to the
Attorney General that an unexpired attestation is
on file and in effect under section 1182(m)(2) of
this title for the facility (as defined in section
1182(m)(6) of this title) for which the alien will
perform the services; or (ii)(a) having a residence
in a foreign country which he has no intention of
abandoning who is coming temporarily to the
United States to perform agricultural labor or
services, as defined by the Secretary of Labor in
regulations and including agricultural labor
106a

defined in section 3121(g) of title 26, agriculture as
defined in section 203(f) of title 29, and the
pressing of apples for cider on a farm, of a
temporary or seasonal nature, or (b) having a
residence in a foreign country which he has no
intention of abandoning who is coming temporarily
to the United States to perform other temporary
service or labor if unemployed persons capable of
performing such service or labor cannot be found
in this country, but this clause shall not apply to
graduates of medical schools coming to the United
States to perform services as members of the
medical profession; or (iii) having a residence in a
foreign country which he has no intention of
abandoning who is coming temporarily to the
United States as a trainee, other than to receive
graduate medical education or training, in a
training program that is not designed primarily to
provide productive employment; and the alien
spouse and minor children of any such alien
specified in this paragraph if accompanying him or
following to join him;
(I) upon a basis of reciprocity, an alien who is a
bona fide representative of foreign press, radio,
film, or other foreign information media, who seeks
to enter the United States solely to engage in such
vocation, and the spouse and children of such a
representative, if accompanying or following to join
him;
(J) an alien having a residence in a foreign
country which he has no intention of abandoning
who is a bona fide student, scholar, trainee,
teacher, professor, research assistant, specialist, or
leader in a field of specialized knowledge or skill,
or other person of similar description, who is
107a

coming temporarily to the United States as a
participant in a program designated by the
Director of the United States Information Agency,
for the purpose of teaching, instructing or
lecturing,
studying,
observing,
conducting
research, consulting, demonstrating special skills,
or receiving training and who, if he is coming to
the United States to participate in a program
under which he will receive graduate medical
education or training, also meets the requirements
of section 1182(j) of this title, and the alien spouse
and minor children of any such alien if
accompanying him or following to join him;
(K) subject to subsections (d) and (p) 1 of section
1184 of this title, an alien who—
(i) is the fiancée or fiancé of a citizen of the
United States (other than a citizen described in
section 1154(a)(1)(A)(viii)(I) of this title) and who
seeks to enter the United States solely to
conclude a valid marriage with the petitioner
within ninety days after admission;
(ii) has concluded a valid marriage with a
citizen of the United States (other than a citizen
described in section 1154(a)(1)(A)(viii)(I) of this
title) who is the petitioner, is the beneficiary of a
petition to accord a status under section
1151(b)(2)(A)(i) of this title that was filed under
section 1154 of this title by the petitioner, and
seeks to enter the United States to await the
approval of such petition and the availability to
the alien of an immigrant visa; or
(iii) is the minor child of an alien described in
clause (i) or (ii) and is accompanying, or
following to join, the alien;

108a

(L) subject to section 1184(c)(2) of this title, an
alien who, within 3 years preceding the time of his
application for admission into the United States,
has been employed continuously for one year by a
firm or corporation or other legal entity or an
affiliate or subsidiary thereof and who seeks to
enter the United States temporarily in order to
continue to render his services to the same
employer or a subsidiary or affiliate thereof in a
capacity that is managerial, executive, or involves
specialized knowledge, and the alien spouse and
minor children of any such alien if accompanying
him or following to join him;
(M)(i) an alien having a residence in a foreign
country which he has no intention of abandoning
who seeks to enter the United States temporarily
and solely for the purpose of pursuing a full course
of study at an established vocational or other
recognized nonacademic institution (other than in
a language training program) in the United States
particularly designated by him and approved by
the Attorney General, after consultation with the
Secretary of Education, which institution shall
have agreed to report to the Attorney General the
termination of attendance of each nonimmigrant
nonacademic student and if any such institution
fails to make reports promptly the approval shall
be withdrawn, (ii) the alien spouse and minor
children of any alien described in clause (i) if
accompanying or following to join such an alien,
and (iii) an alien who is a national of Canada or
Mexico, who maintains actual residence and place
of abode in the country of nationality, who is
109a

described in clause (i) except that the alien's course
of study may be full or part-time, and who
commutes to the United States institution or place
of study from Canada or Mexico;
(N)(i) the parent of an alien accorded the status
of special immigrant under paragraph (27)(I)(i) (or
under analogous authority under paragraph
(27)(L)), but only if and while the alien is a child,
or
(ii) a child of such parent or of an alien accorded
the status of a special immigrant under clause (ii),
(iii), or (iv) of paragraph (27)(I) (or under
analogous authority under paragraph (27)(L));
(O) an alien who—
(i) has extraordinary ability in the sciences,
arts, education, business, or athletics which has
been demonstrated by sustained national or
international acclaim or, with regard to motion
picture
and
television
productions
a
demonstrated
record
of
extraordinary
achievement, and whose achievements have
been recognized in the field through extensive
documentation, and seeks to enter the United
States to continue work in the area of
extraordinary ability; or
(ii)(I) seeks to enter the United States
temporarily and solely for the purpose of
accompanying and assisting in the artistic or
athletic performance by an alien who is admitted
under clause (i) for a specific event or events,
(II) is an integral part of such actual
performance,
(III)(a) has critical skills and experience with
such alien which are not of a general nature and
which cannot be performed by other individuals,
110a

or (b) in the case of a motion picture or television
production, has skills and experience with such
alien which are not of a general nature and
which are critical either based on a pre-existing
longstanding working relationship or, with
respect to the specific production, because
significant production (including pre- and postproduction work) will take place both inside and
outside the United States and the continuing
participation of the alien is essential to the
successful completion of the production, and
(IV) has a foreign residence which the alien
has no intention of abandoning; or
(iii) is the alien spouse or child of an alien
described in clause (i) or (ii) and is
accompanying, or following to join, the alien;
(P) an alien having a foreign residence which the
alien has no intention of abandoning who—
(i)(a) is described in section 1184(c)(4)(A) of
this title (relating to athletes), or (b) is described
in section 1184(c)(4)(B) of this title (relating to
entertainment groups);
(ii)(I) performs as an artist or entertainer,
individually or as part of a group, or is an
integral part of the performance of such a group,
and
(II) seeks to enter the United States
temporarily and solely for the purpose of
performing as such an artist or entertainer or
with such a group under a reciprocal exchange
program which is between an organization or
organizations in the United States and an
organization or organizations in one or more
111a

foreign states and which provides for the
temporary exchange of artists and entertainers,
or groups of artists and entertainers;
(iii)(I) performs as an artist or entertainer,
individually or as part of a group, or is an
integral part of the performance of such a group,
and
(II) seeks to enter the United States
temporarily and solely to perform, teach, or
coach as such an artist or entertainer or with
such a group under a commercial or
noncommercial program that is culturally
unique; or
(iv) is the spouse or child of an alien described
in clause (i), (ii), or (iii) and is accompanying, or
following to join, the alien;
(Q) an alien having a residence in a foreign
country which he has no intention of abandoning
who is coming temporarily (for a period not to
exceed 15 months) to the United States as a
participant in an international cultural exchange
program approved by the Secretary of Homeland
Security for the purpose of providing practical
training, employment, and the sharing of the
history, culture, and traditions of the country of
the alien's nationality and who will be employed
under the same wages and working conditions as
domestic workers;
(R) an alien, and the spouse and children of the
alien if accompanying or following to join the alien,
who—
(i) for the 2 years immediately preceding the
time of application for admission, has been a
112a

member of a religious denomination having a
bona fide nonprofit, religious organization in the
United States; and
(ii) seeks to enter the United States for a
period not to exceed 5 years to perform the work
described in subclause (I), (II), or (III) of
paragraph (27)(C)(ii);
(S) subject to section 1184(k) of this title, an
alien—
(i) who the Attorney General determines—
(I) is in possession of critical reliable
information
concerning
a
criminal
organization or enterprise;
(II) is willing to supply or has supplied such
information to Federal or State law
enforcement authorities or a Federal or State
court; and
(III) whose presence in the United States
the Attorney General determines is essential
to the success of an authorized criminal
investigation or the successful prosecution of
an individual involved in the criminal
organization or enterprise; or
(ii) who the Secretary of State and the
Attorney General jointly determine—
(I) is in possession of critical reliable
information
concerning
a
terrorist
organization, enterprise, or operation;
(II) is willing to supply or has supplied such
information to Federal law enforcement
authorities or a Federal court;
113a

(III) will be or has been placed in danger as
a result of providing such information; and
(IV) is eligible to receive a reward under
section 2708(a) of title 22,
and, if the Attorney General (or with respect to
clause (ii), the Secretary of State and the Attorney
General jointly) considers it to be appropriate, the
spouse, married and unmarried sons and daughters,
and parents of an alien described in clause (i) or (ii) if
accompanying, or following to join, the alien;
(T)(i) subject to section 1184(o) of this title, an
alien who the Secretary of Homeland Security, or
in the case of subclause (III)(aa) the Secretary of
Homeland Security, in consultation with the
Attorney General, determines—
(I) is or has been a victim of a severe form of
trafficking in persons, as defined in section 7102
of title 22;
(II) is physically present in the United States,
American Samoa, or the Commonwealth of the
Northern Mariana Islands, or at a port of entry
thereto, on account of such trafficking, including
physical presence on account of the alien having
been allowed entry into the United States for
participation in investigative or judicial
processes associated with an act or a perpetrator
of trafficking;
(III)(aa) has complied with any reasonable
request for assistance in the Federal, State, or
local investigation or prosecution of acts of
trafficking or the investigation of crime where
acts of trafficking are at least one central reason
for the commission of that crime;
114a

(bb) in consultation with the Attorney
General, as appropriate, is unable to cooperate
with a request described in item (aa) due to
physical or psychological trauma; or
(cc) has not attained 18 years of age; and
(IV) the alien 2 would suffer extreme hardship
involving unusual and severe harm upon
removal; and
(ii) if accompanying, or following to join, the
alien described in clause (i)—
(I) in the case of an alien described in clause (i)
who is under 21 years of age, the spouse,
children, unmarried siblings under 18 years of
age on the date on which such alien applied for
status under such clause, and parents of such
alien;
(II) in the case of an alien described in clause
(i) who is 21 years of age or older, the spouse and
children of such alien; or
(III) any parent or unmarried sibling under 18
years of age, or any adult or minor children of a
derivative beneficiary of the alien, as of an alien
described in subclause (I) or (II) who the
Secretary of Homeland Security, in consultation
with the law enforcement officer investigating a
severe form of trafficking, determines faces a
present danger of retaliation as a result of the
alien's escape from the severe form of trafficking
or cooperation with law enforcement.
(U)(i) subject to section 1184(p) of this title, an
alien who files a petition for status under this
115a

subparagraph, if the Secretary of Homeland
Security determines that—
(I) the alien has suffered substantial physical
or mental abuse as a result of having been a
victim of criminal activity described in clause
(iii);
(II) the alien (or in the case of an alien child
under the age of 16, the parent, guardian, or
next friend of the alien) possesses information
concerning criminal activity described in clause
(iii);
(III) the alien (or in the case of an alien child
under the age of 16, the parent, guardian, or
next friend of the alien) has been helpful, is
being helpful, or is likely to be helpful to a
Federal, State, or local law enforcement official,
to a Federal, State, or local prosecutor, to a
Federal or State judge, to the Service, or to other
Federal, State, or local authorities investigating
or prosecuting criminal activity described in
clause (iii); and
(IV) the criminal activity described in clause
(iii) violated the laws of the United States or
occurred in the United States (including in
Indian country and military installations) or the
territories and possessions of the United States;
(ii) if accompanying, or following to join, the
alien described in clause (i)—
(I) in the case of an alien described in clause (i)
who is under 21 years of age, the spouse,
children, unmarried siblings under 18 years of
age on the date on which such alien applied for

116a

status under such clause, and parents of such
alien; or
(II) in the case of an alien described in clause
(i) who is 21 years of age or older, the spouse and
children of such alien; and
(iii) the criminal activity referred to in this
clause is that involving one or more of the
following or any similar activity in violation of
Federal, State, or local criminal law: rape; torture;
trafficking; incest; domestic violence; sexual
assault; abusive sexual contact; prostitution;
sexual exploitation; stalking; female genital
mutilation;
being
held
hostage;
peonage;
involuntary servitude; slave trade; kidnapping;
abduction; unlawful criminal restraint; false
imprisonment; blackmail; extortion; manslaughter;
murder; felonious assault; witness tampering;
obstruction of justice; perjury; fraud in foreign
labor contracting (as defined in section 1351 of title
18); or attempt, conspiracy, or solicitation to
commit any of the above mentioned crimes; or
(V) subject to section 1184(q) of this title, an
alien who is the beneficiary (including a child of
the principal alien, if eligible to receive a visa
under section 1153(d) of this title) of a petition to
accord a status under section 1153(a)(2)(A) of this
title that was filed with the Attorney General
under section 1154 of this title on or before
December 21, 2000, if—
(i) such petition has been pending for 3 years
or more; or
(ii) such petition has been approved, 3 years or
more have elapsed since such filing date, and—
117a

(I) an immigrant visa is not immediately
available to the alien because of a waiting list
of applicants for visas under section
1153(a)(2)(A) of this title; or
(II) the alien's application for an immigrant
visa, or the alien's application for adjustment
of status under section 1255 of this title,
pursuant to the approval of such petition,
remains pending.
****

118a

8 U.S.C. §1184
§1184. Admission of nonimmigrants
(a) Regulations
(1) The admission to the United States of any alien
as a nonimmigrant shall be for such time and under
such conditions as the Attorney General may by
regulations prescribe, including when he deems
necessary the giving of a bond with sufficient surety
in such sum and containing such conditions as the
Attorney General shall prescribe, to insure that at
the expiration of such time or upon failure to
maintain the status under which he was admitted, or
to maintain any status subsequently acquired under
section 1258 of this title, such alien will depart from
the United States. No alien admitted to Guam or the
Commonwealth of the Northern Mariana Islands
without a visa pursuant to section 1182(l) of this title
may be authorized to enter or stay in the United
States other than in Guam or the Commonwealth of
the Northern Mariana Islands or to remain in Guam
or the Commonwealth of the Northern Mariana
Islands for a period exceeding 45 days from date of
admission to Guam or the Commonwealth of the
Northern Mariana Islands. No alien admitted to the
United States without a visa pursuant to section
1187 of this title may be authorized to remain in the
United States as a nonimmigrant visitor for a period
exceeding 90 days from the date of admission.
(2)(A) The period of authorized status as a
nonimmigrant described in section 1101(a)(15)(O)
of this title shall be for such period as the Attorney
General may specify in order to provide for the event
(or events) for which the nonimmigrant is admitted.
119a

(B) The period of authorized status as a
nonimmigrant described in section 1101(a)(15)(P) of
this title shall be for such period as the Attorney
General may specify in order to provide for the
competition, event, or performance for which the
nonimmigrant is admitted. In the case of
nonimmigrants admitted as individual athletes
under section 1101(a)(15)(P) of this title, the period
of authorized status may be for an initial period (not
to exceed 5 years) during which the nonimmigrant
will perform as an athlete and such period may be
extended by the Attorney General for an additional
period of up to 5 years.
(b) Presumption of status; written waiver
Every alien (other than a nonimmigrant described
in subparagraph (L) or (V) of section 1101(a)(15) of
this title, and other than a nonimmigrant described
in any provision of section 1101(a)(15)(H)(i) of this
title except subclause (b1) of such section) shall be
presumed to be an immigrant until he establishes to
the satisfaction of the consular officer, at the time of
application for a visa, and the immigration officers,
at the time of application for admission, that he is
entitled to a nonimmigrant status under section
1101(a)(15) of this title. An alien who is an officer or
employee of any foreign government or of any
international organization entitled to enjoy
privileges, exemptions, and immunities under the
International Organizations Immunities Act [22
U.S.C. 288 et seq.], or an alien who is the attendant,
servant, employee, or member of the immediate
family of any such alien shall not be entitled to apply
for or receive an immigrant visa, or to enter the
United States as an immigrant unless he executes a
120a

written waiver in the same form and substance as is
prescribed by section 1257(b) of this title.
(c) Petition of importing employer
(1) The question of importing any alien as a
nonimmigrant under subparagraph (H), (L), (O), or
(P)(i) of section 1101(a)(15) of this title (excluding
nonimmigrants under section 1101(a)(15)(H)(i)(b1) of
this title) in any specific case or specific cases shall
be determined by the Attorney General, after
consultation with appropriate agencies of the
Government, upon petition of the importing
employer. Such petition, shall be made and approved
before the visa is granted. The petition shall be in
such form and contain such information as the
Attorney General shall prescribe. The approval of
such a petition shall not, of itself, be construed as
establishing that the alien is a nonimmigrant. For
purposes of this subsection with respect to
nonimmigrants
described
in
section
1101(a)(15)(H)(ii)(a) of this title, the term
"appropriate agencies of Government" means the
Department of Labor and includes the Department of
Agriculture. The provisions of section 1188 of this
title shall apply to the question of importing any
alien
as
a
nonimmigrant
under
section
1101(a)(15)(H)(ii)(a) of this title.
(2)(A) The Attorney General shall provide for a
procedure under which an importing employer which
meets requirements established by the Attorney
General may file a blanket petition to import aliens
as nonimmigrants described in section 1101(a)(15)(L)
of this title instead of filing individual petitions
under paragraph (1) to import such aliens. Such
procedure shall permit the expedited processing of
121a

visas for admission of aliens covered under such a
petition.
(B) For purposes of section 1101(a)(15)(L) of this
title, an alien is considered to be serving in a
capacity involving specialized knowledge with
respect to a company if the alien has a special
knowledge of the company product and its
application in international markets or has an
advanced level of knowledge of processes and
procedures of the company.
(C) The Attorney General shall provide a process
for reviewing and acting upon petitions under this
subsection with respect to nonimmigrants described
in section 1101(a)(15)(L) of this title within 30 days
after the date a completed petition has been filed.
(D) The period of authorized admission for—
(i) a nonimmigrant admitted to render services
in a managerial or executive capacity under
section 1101(a)(15)(L) of this title shall not exceed
7 years, or
(ii) a nonimmigrant admitted to render services
in a capacity that involves specialized knowledge
under section 1101(a)(15)(L) of this title shall not
exceed 5 years.
(E) In the case of an alien spouse admitted under
section 1101(a)(15)(L) of this title, who is
accompanying or following to join a principal alien
admitted under such section, the Attorney General
shall authorize the alien spouse to engage in
employment in the United States and provide the
spouse
with
an
"employment
authorized"
endorsement or other appropriate work permit.
(F) An alien who will serve in a capacity involving
specialized knowledge with respect to an employer
for purposes of section 1101(a)(15)(L) of this title and
122a

will be stationed primarily at the worksite of an
employer other than the petitioning employer or its
affiliate, subsidiary, or parent shall not be eligible for
classification under section 1101(a)(15)(L) of this
title if—
(i) the alien will be controlled and supervised
principally by such unaffiliated employer; or
(ii) the placement of the alien at the worksite of
the unaffiliated employer is essentially an
arrangement to provide labor for hire for the
unaffiliated employer, rather than a placement in
connection with the provision of a product or
service for which specialized knowledge specific to
the petitioning employer is necessary.
(3) The Attorney General shall approve a
petition—
(A) with respect to a nonimmigrant described in
section 1101(a)(15)(O)(i) of this title only after
consultation in accordance with paragraph (6) or,
with respect to aliens seeking entry for a motion
picture or television production, after consultation
with the appropriate union representing the alien's
occupational
peers
and
a
management
organization in the area of the alien's ability, or
(B) with respect to a nonimmigrant described in
section 1101(a)(15)(O)(ii) of this title after
consultation in accordance with paragraph (6) or,
in the case of such an alien seeking entry for a
motion picture or television production, after
consultation with such a labor organization and a
management organization in the area of the alien's
ability.

123a

In the case of an alien seeking entry for a motion
picture or television production, (i) any opinion under
the previous sentence shall only be advisory, (ii) any
such opinion that recommends denial must be in
writing, (iii) in making the decision the Attorney
General shall consider the exigencies and scheduling
of the production, and (iv) the Attorney General shall
append to the decision any such opinion. The
Attorney General shall provide by regulation for the
waiver of the consultation requirement under
subparagraph (A) in the case of aliens who have been
admitted
as
nonimmigrants
under
section
1101(a)(15)(O)(i) of this title because of extraordinary
ability in the arts and who seek readmission to
perform similar services within 2 years after the date
of a consultation under such subparagraph. Not later
than 5 days after the date such a waiver is provided,
the Attorney General shall forward a copy of the
petition and all supporting documentation to the
national office of an appropriate labor organization.
(4)(A) For purposes of section 1101(a)(15)(P)(i)(a) of
this title, an alien is described in this subparagraph
if the alien—
(i)(I) performs as an athlete, individually or as
part of a group or team, at an internationally
recognized level of performance;
(II) is a professional athlete, as defined in
section 1154(i)(2) of this title;
(III) performs as an athlete, or as a coach, as
part of a team or franchise that is located in the
United States and a member of a foreign league or
association of 15 or more amateur sports teams,
if—

124a

(aa) the foreign league or association is the
highest level of amateur performance of that
sport in the relevant foreign country;
(bb) participation in such league or association
renders players ineligible, whether on a
temporary or permanent basis, to earn a
scholarship in, or participate in, that sport at a
college or university in the United States under
the rules of the National Collegiate Athletic
Association; and
(cc) a significant number of the individuals
who play in such league or association are
drafted by a major sports league or a minor
league affiliate of such a sports league; or
(IV) is a professional athlete or amateur athlete
who performs individually or as part of a group in
a theatrical ice skating production; and
(ii) seeks to enter the United States temporarily
and solely for the purpose of performing—
(I) as such an athlete with respect to a specific
athletic competition; or
(II) in the case of an individual described in
clause (i)(IV), in a specific theatrical ice skating
production or tour.
(B)(i) For purposes of section 1101(a)(15)(P)(i)(b) of
this title, an alien is described in this subparagraph
if the alien—
(I) performs with or is an integral and essential
part of the performance of an entertainment group
that has (except as provided in clause (ii)) been
recognized internationally as being outstanding in
the discipline for a sustained and substantial
period of time,
(II) in the case of a performer or entertainer,
except as provided in clause (iii), has had a
125a

sustained and substantial relationship with that
group (ordinarily for at least one year) and
provides functions integral to the performance of
the group, and
(III) seeks to enter the United States
temporarily and solely for the purpose of
performing as such a performer or entertainer or
as an integral and essential part of a performance.
(ii) In the case of an entertainment group that is
recognized nationally as being outstanding in its
discipline for a sustained and substantial period of
time, the Attorney General may, in consideration of
special circumstances, waive the international
recognition requirement of clause (i)(I).
(iii)(I) The one-year relationship requirement of
clause (i)(II) shall not apply to 25 percent of the
performers and entertainers in a group.
(II) The Attorney General may waive such oneyear relationship requirement for an alien who
because of illness or unanticipated and exigent
circumstances replaces an essential member of the
group and for an alien who augments the group by
performing a critical role.
(iv) The requirements of subclauses (I) and (II) of
clause (i) shall not apply to alien circus personnel
who perform as part of a circus or circus group or
who constitute an integral and essential part of the
performance of such circus or circus group, but only
if such personnel are entering the United States to
join a circus that has been recognized nationally as
outstanding for a sustained and substantial period of
time or as part of such a circus.
(C) A person may petition the Attorney General for
classification of an alien as a nonimmigrant under
section 1101(a)(15)(P) of this title.
126a

(D) The Attorney General shall approve petitions
under this subsection with respect to nonimmigrants
described in clause (i) or (iii) of section 1101(a)(15)(P)
of this title only after consultation in accordance
with paragraph (6).
(E) The Attorney General shall approve petitions
under this subsection for nonimmigrants described
in section 1101(a)(15)(P)(ii) of this title only after
consultation with labor organizations representing
artists and entertainers in the United States.
(F)(i) No nonimmigrant visa under section
1101(a)(15)(P)(i)(a) of this title shall be issued to any
alien who is a national of a country that is a state
sponsor of international terrorism unless the
Secretary of State determines, in consultation with
the Secretary of Homeland Security and the heads of
other appropriate United States agencies, that such
alien does not pose a threat to the safety, national
security, or national interest of the United States. In
making a determination under this subparagraph,
the Secretary of State shall apply standards
developed by the Secretary of State, in consultation
with the Secretary of Homeland Security and the
heads of other appropriate United States agencies,
that are applicable to the nationals of such states.
(ii) In this subparagraph, the term "state sponsor
of international terrorism" means any country the
government of which has been determined by the
Secretary of State under any of the laws specified in
clause (iii) to have repeatedly provided support for
acts of international terrorism.
(iii) The laws specified in this clause are the
following:
(I) Section 4605(j)(1)(A) of title 50 (or successor
statute).1
127a

(II) Section 2780(d) of title 22.
(III) Section 2371(a) of title 22.
(G) The Secretary of Homeland Security shall
permit a petition under this subsection to seek
classification of more than 1 alien as a nonimmigrant
under section 1101(a)(15)(P)(i)(a) of this title.
(H) The Secretary of Homeland Security shall
permit an athlete, or the employer of an athlete, to
seek admission to the United States for such athlete
under a provision of this chapter other than section
1101(a)(15)(P)(i) of this title if the athlete is eligible
under such other provision.
(5)(A) In the case of an alien who is provided
nonimmigrant
status
under
section
1101(a)(15)(H)(i)(b) or 1101(a)(15)(H)(ii)(b) of this
title and who is dismissed from employment by the
employer before the end of the period of authorized
admission, the employer shall be liable for the
reasonable costs of return transportation of the alien
abroad.
(B) In the case of an alien who is admitted to the
United States in nonimmigrant status under section
1101(a)(15)(O) or 1101(a)(15)(P) of this title and
whose employment terminates for reasons other than
voluntary resignation, the employer whose offer of
employment formed the basis of such nonimmigrant
status and the petitioner are jointly and severally
liable for the reasonable cost of return transportation
of the alien abroad. The petitioner shall provide
assurance satisfactory to the Attorney General that
the reasonable cost of that transportation will be
provided.
(6)(A)(i) To meet the consultation requirement of
paragraph (3)(A) in the case of a petition for a
nonimmigrant described in section 1101(a)(15)(O)(i)
128a

of this title (other than with respect to aliens seeking
entry for a motion picture or television production),
the petitioner shall submit with the petition an
advisory opinion from a peer group (or other person
or persons of its choosing, which may include a labor
organization) with expertise in the specific field
involved.
(ii) To meet the consultation requirement of
paragraph (3)(B) in the case of a petition for a
nonimmigrant described in section 1101(a)(15)(O)(ii)
of this title (other than with respect to aliens seeking
entry for a motion picture or television production),
the petitioner shall submit with the petition an
advisory opinion from a labor organization with
expertise in the skill area involved.
(iii) To meet the consultation requirement of
paragraph (4)(D) in the case of a petition for a
nonimmigrant described in section 1101(a)(15)(P)(i)
or 1101(a)(15)(P)(iii) of this title, the petitioner shall
submit with the petition an advisory opinion from a
labor organization with expertise in the specific field
of athletics or entertainment involved.
(B) To meet the consultation requirements of
subparagraph (A), unless the petitioner submits with
the petition an advisory opinion from an appropriate
labor organization, the Attorney General shall
forward a copy of the petition and all supporting
documentation to the national office of an
appropriate labor organization within 5 days of the
date of receipt of the petition. If there is a collective
bargaining
representative
of an employer's
employees in the occupational classification for
which the alien is being sought, that representative
shall be the appropriate labor organization.

129a

(C) In those cases in which a petitioner described
in subparagraph (A) establishes that an appropriate
peer group (including a labor organization) does not
exist, the Attorney General shall adjudicate the
petition without requiring an advisory opinion.
(D) Any person or organization receiving a copy of
a petition described in subparagraph (A) and
supporting documents shall have no more than 15
days following the date of receipt of such documents
within which to submit a written advisory opinion or
comment or to provide a letter of no objection. Once
the 15-day period has expired and the petitioner has
had an opportunity, where appropriate, to supply
rebuttal evidence, the Attorney General shall
adjudicate such petition in no more than 14 days.
The Attorney General may shorten any specified
time period for emergency reasons if no unreasonable
burden would be thus imposed on any participant in
the process.
(E)(i) The Attorney General shall establish by
regulation expedited consultation procedures in the
case of nonimmigrant artists or entertainers
described in section 1101(a)(15)(O) or 1101(a)(15)(P)
of this title to accommodate the exigencies and
scheduling of a given production or event.
(ii) The Attorney General shall establish by
regulation expedited consultation procedures in the
case of nonimmigrant athletes described in section
1101(a)(15)(O)(i) or 1101(a)(15)(P)(i) of this title in
the case of emergency circumstances (including
trades during a season).
(F) No consultation required under this subsection
by the Attorney General with a nongovernmental
entity shall be construed as permitting the Attorney
General to delegate any authority under this
130a

subsection to such an entity. The Attorney General
shall give such weight to advisory opinions provided
under this section as the Attorney General
determines, in his sole discretion, to be appropriate.
(7) If a petition is filed and denied under this
subsection, the Attorney General shall notify the
petitioner of the determination and the reasons for
the denial and of the process by which the petitioner
may appeal the determination.
(8) The Attorney General shall submit annually to
the Committees on the Judiciary of the House of
Representatives and of the Senate a report
describing, with respect to petitions under each
subcategory of subparagraphs (H), (O), (P), and (Q) of
section 1101(a)(15) of this title the following:
(A) The number of such petitions which have
been filed.
(B) The number of such petitions which have
been approved and the number of workers (by
occupation) included in such approved petitions.
(C) The number of such petitions which have
been denied and the number of workers (by
occupation) requested in such denied petitions.
(D) The number of such petitions which have
been withdrawn.
(E) The number of such petitions which are
awaiting final action.
(9)(A) The Attorney General shall impose a fee on
an employer (excluding any employer that is a
primary or secondary education institution, an
institution of higher education, as defined in section
1001(a) of title 20, a nonprofit entity related to or
affiliated with any such institution, a nonprofit
entity which engages in established curriculumrelated clinical training of students registered at any
131a

such institution, a nonprofit research organization,
or a governmental research organization) filing
before 2 a petition under paragraph (1)—
(i) initially to grant an alien nonimmigrant
status described in section 1101(a)(15)(H)(i)(b) of
this title;
(ii) to extend the stay of an alien having such
status (unless the employer previously has
obtained an extension for such alien); or
(iii) to obtain authorization for an alien having
such status to change employers.
(B) The amount of the fee shall be $1,500 for each
such petition except that the fee shall be half the
amount for each such petition by any employer with
not more than 25 full-time equivalent employees who
are employed in the United States (determined by
including any affiliate or subsidiary of such
employer).
(C) Fees collected under this paragraph shall be
deposited in the Treasury in accordance with section
1356(s) of this title.
(10) An amended H–1B petition shall not be
required where the petitioning employer is involved
in a corporate restructuring, including but not
limited to a merger, acquisition, or consolidation,
where a new corporate entity succeeds to the
interests and obligations of the original petitioning
employer and where the terms and conditions of
employment remain the same but for the identity of
the petitioner.
(11)(A) Subject to subparagraph (B), the Secretary
of Homeland Security or the Secretary of State, as
appropriate, shall impose a fee on an employer who
has filed an attestation described in section 1182(t)
of this title—
132a

(i) in order that an alien may be initially granted
nonimmigrant status described in section
1101(a)(15)(H)(i)(b1) of this title; or
(ii) in order to satisfy the requirement of the
second sentence of subsection (g)(8)(C) for an alien
having such status to obtain certain extensions of
stay.
(B) The amount of the fee shall be the same as the
amount imposed by the Secretary of Homeland
Security under paragraph (9), except that if such
paragraph does not authorize such Secretary to
impose any fee, no fee shall be imposed under this
paragraph.
(C) Fees collected under this paragraph shall be
deposited in the Treasury in accordance with section
1356(s) of this title.
(12)(A) In addition to any other fees authorized by
law, the Secretary of Homeland Security shall
impose a fraud prevention and detection fee on an
employer filing a petition under paragraph (1)—
(i) initially to grant an alien nonimmigrant
status described in subparagraph (H)(i)(b) or (L) of
section 1101(a)(15) of this title; or
(ii) to obtain authorization for an alien having
such status to change employers.
(B) In addition to any other fees authorized by law,
the Secretary of State shall impose a fraud
prevention and detection fee on an alien filing an
application abroad for a visa authorizing admission
to the United States as a nonimmigrant described in
section 1101(a)(15)(L) of this title, if the alien is
covered under a blanket petition described in
paragraph (2)(A).
(C) The amount of the fee imposed under
subparagraph (A) or (B) shall be $500.
133a

(D) The fee imposed under subparagraph (A) or (B)
shall only apply to principal aliens and not to the
spouses or children who are accompanying or
following to join such principal aliens.
(E) Fees collected under this paragraph shall be
deposited in the Treasury in accordance with section
1356(v) of this title.
(13)(A) In addition to any other fees authorized by
law, the Secretary of Homeland Security shall
impose a fraud prevention and detection fee on an
employer filing a petition under paragraph (1) for
nonimmigrant workers described in section
1101(a)(15)(H)(ii)(b) of this title.
(B) The amount of the fee imposed under
subparagraph (A) shall be $150.
(14)(A) If the Secretary of Homeland Security
finds, after notice and an opportunity for a hearing, a
substantial failure to meet any of the conditions of
the petition to admit or otherwise provide status to a
nonimmigrant
worker
under
section
1101(a)(15)(H)(ii)(b) of this title or a willful
misrepresentation of a material fact in such
petition—
(i) the Secretary of Homeland Security may, in
addition to any other remedy authorized by law,
impose such administrative remedies (including
civil monetary penalties in an amount not to
exceed $10,000 per violation) as the Secretary of
Homeland Security determines to be appropriate;
and
(ii) the Secretary of Homeland Security may
deny petitions filed with respect to that employer
under section 1154 of this title or paragraph (1) of
this subsection during a period of at least 1 year

134a

but not more than 5 years for aliens to be
employed by the employer.
(B) The Secretary of Homeland Security may
delegate to the Secretary of Labor, with the
agreement of the Secretary of Labor, any of
the authority given to the Secretary of Homeland
Security under subparagraph (A)(i).
(C) In determining the level of penalties to be
assessed under subparagraph (A), the highest
penalties shall be reserved for willful failures to meet
any of the conditions of the petition that involve
harm to United States workers.
(D) In this paragraph, the term "substantial
failure" means the willful failure to comply with the
requirements of this section that constitutes a
significant deviation from the terms and conditions
of a petition.
****

135a

